U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                               Review of the 

                            Drug Enforcement 

                             Administration’s 

                        El Paso Intelligence Center 


                                      June 2010




                                      I-2010-005
                               EXECUTIVE DIGEST 



INTRODUCTION

      The border between the United States and Mexico presents a long-
standing challenge to U.S. law enforcement. Criminal organizations
smuggle illicit drugs, undocumented aliens, and other contraband across
the border into the United States, and cash and weapons into Mexico.

       The El Paso Intelligence Center (EPIC) is a Drug Enforcement
Administration (DEA) led and funded intelligence center, located in
El Paso, Texas, near Juarez, Mexico. EPIC focuses its programs on the
collection and dissemination of tactical intelligence.1 EPIC provides
federal, state, and local law enforcement agencies information they can
use in investigations and operations that target smuggling and other
criminal activities.

      When it was established in 1974, EPIC focused primarily on
Mexican heroin traffickers and illegal alien and weapon smugglers.
EPIC’s focus today is broader, providing an intelligence resource that
targets a wider range of criminal activity. EPIC’s mission has evolved in
response to a shift in focus to Southwest border smuggling and
associated violence, and the need for improved collaboration and timely
information sharing among law enforcement and intelligence agencies.
EPIC currently hosts representatives from 21 different agencies and
provides information to over 19,000 law enforcement officers and
analysts who are approved EPIC users.

       This review by the Office of the Inspector General (OIG) examined
the roles and functions of EPIC and its analysis and dissemination of
intelligence in support of federal, state, and local law enforcement
investigations and interdiction operations. In this review, we interviewed
representatives of investigative agencies that obtain intelligence from
EPIC. We also conducted site visits at EPIC and several law enforcement
agencies along the Southwest border and elsewhere, analyzed EPIC data
and its performance measures, and reviewed U.S. national counter-drug
strategy and policy materials. In addition, we administered a nationwide
survey of EPIC users to obtain their perspectives on EPIC’s products and
services.



       1  Tactical intelligence is information on which immediate enforcement action –
arrests, seizures, and interdictions – can be based.


U.S. Department of Justice                                                               i
Office of the Inspector General
Evaluation and Inspections Division
RESULTS IN BRIEF

      Our review found that EPIC is highly valued by its partner agencies
and users, and that its users find its products to be valuable and useful.
However, we identified several significant weaknesses that have prevented
EPIC’s operations and programs from being as effective as they could be.

       We found that EPIC does not have an effective program or strategy
to inform users and potential users about products and services that
could assist them. Further, we found that EPIC did not adequately
support several key interdiction programs and, as a result, its service to
users was at times disrupted or diminished for periods of time.

      As a multi-agency intelligence center, EPIC relies upon its diverse
federal and other members for staffing and access to external sources of
law enforcement information and intelligence. We believe that the lack of
an up-to-date agreement between EPIC and its participating members
has contributed to coordination problems, such as member agencies not
sustaining programs, sharing information, or contributing resources to
EPIC.

        We also identified two EPIC programs that were not fully
implemented because EPIC could not require the law enforcement
participation necessary to execute these programs. First, EPIC has not
developed the National Seizure System into a comprehensive database
into which all drug seizures are reported nationwide.2 Rather, reporting
seizure information into the system is optional for most federal, state,
and local agencies. As a result, intelligence products based on this data
may be incomplete or inaccurate. Second, EPIC has not established
itself as the hub for the High Intensity Drug Trafficking Area (HIDTA)
program. The HIDTAs, which coordinate drug control efforts among
federal, state, and local law enforcement agencies, operate as
32 autonomous task forces and allied intelligence centers.

       Further, EPIC’s coordination with federal and state intelligence
organizations across the country is inconsistent. For EPIC to more
efficiently disseminate information, it should have contacts in key
intelligence centers and ensure that those contacts are aware of EPIC’s
products and services and how to access them.

        2 The National Seizure System is a repository for information on drug,

clandestine laboratory, and other contraband seizures such as chemical precursors,
currency, and weapons. The system also contains information on methods of
concealment, seizure locations, people, organizations, and transportation, and is used
in federal, regional, state, and local law enforcement analyses and policy development.


U.S. Department of Justice                                                                ii
Office of the Inspector General
Evaluation and Inspections Division
      We also found that as the number of participating agencies at EPIC
increased overall, federal agencies submitted fewer requests to EPIC for
information, as measured by EPIC Checks, between fiscal year (FY) 2005
and FY 2009. By contrast, the total number of requests for information
submitted to EPIC by state and local law enforcement has steadily
increased.

       We are concerned about the decline in the use of EPIC by
Department components at a time when the Department has increased
its focus on combating smuggling and its associated violence on the
Southwest border. In light of this, use of EPIC by Department
components should be increasing, particularly by the DEA and the
Federal Bureau of Investigation (FBI).

       We also found that EPIC does not analyze information from several
of the unique sources it possesses and, as a result, may be overlooking
drug trafficking trends and patterns that could assist interdiction
investigations and operations. In particular, EPIC conducts limited
analyses of drug seizure information and does not analyze fraudulent
documents and certain tactical information it collects on the activities of
drug traffickers. Further, the information that EPIC maintains on
Southwest border drug trafficking organizations is not always current.

      In addition, EPIC is not managing the performance of its programs
through objective performance measures and by collecting user feedback.

      To address these issues and to improve EPIC’s utility to the law
enforcement and intelligence community, we make 11 recommendations
to EPIC in our report.

       We discuss these findings and recommendations below.

EPIC users report high satisfaction with its products and services,
but they also report needing more information about EPIC and
improved access to its Portal.

      We surveyed law enforcement personnel and analysts within the
Department, other federal agencies, and state and local agencies that are
users of EPIC.3 Based on the responses of the 765 individuals who
returned the survey (out of 2,499 sent), we found significant satisfaction
among the users of EPIC products. Most federal, state, and local


       3 We did not survey law enforcement personnel who had never established
accounts at EPIC.


U.S. Department of Justice                                                       iii
Office of the Inspector General
Evaluation and Inspections Division
personnel who responded stated that they viewed EPIC products and
services as fully meeting their criteria for timeliness (76 percent),
accuracy (82 percent), relevance (80 percent), and immediate usability
(74 percent).

      However, the results of the survey, along with interviews we
conducted, indicated that EPIC does not have an effective program or
strategy to publicize and promote its products and services. For
example, we found that EPIC’s online information system for its users,
known as the Portal, was not frequently used to request information from
EPIC, although it provided quick access to non-case-specific information
and could be a powerful law enforcement tool. Only 24 percent of EPIC’s
users had registered Portal accounts, and few requests for information
were submitted through the Portal. Our survey results indicate this is
due in large part to users being unaware of the Portal or not knowing
how to use it.

EPIC has not adequately staffed several key interdiction programs
or ensured that member agencies collaborate effectively to sustain
programs and share information.

       We found that EPIC did not sustain staffing for several key
interdiction programs and, as a result, service to its users was disrupted
or diminished for periods of a year or more. A lack of agency
participation caused EPIC’s Fraudulent Document Unit to be unstaffed
and therefore unable to serve users from December 2007 to January
2009, and EPIC’s Air Watch program was unstaffed for approximately
9 months of 2007. In addition, EPIC did not maintain a consistent level
of staffing and support to sustain its participation in a maritime
intelligence group, and the number of tactical reports EPIC contributed
to the group decreased from 2,010 to 819 (59 percent) between FY 2007
and FY 2008. Because EPIC is the agency with the strongest information
gathering capability for certain maritime drug smuggling corridors to the
United States, the failure to fully staff and support this group likely
hindered drug trafficking interdiction efforts.

      In addition, EPIC’s existing multi-agency agreement – the 1999
Principals Accord – does not reflect EPIC’s current membership and
missions. Further, EPIC does not use the Principals Accord effectively to
resolve issues that arise in EPIC’s multi-agency setting, such as ensuring
that priorities are agreed upon so that programs are sustained and that
member agencies meet expectations for participation and information
sharing.



U.S. Department of Justice                                               iv
Office of the Inspector General
Evaluation and Inspections Division
       We identified two other programs that were not fully implemented
because national policy was lacking and because EPIC did not have the
operational control to require the law enforcement participation necessary
to execute these programs. First, we found that EPIC’s process for
aggregating drug seizure information does not provide for comprehensive
analyses of drug trafficking activity. EPIC has not produced a complete
record of drug seizures nationwide because of incomplete reporting into
the National Seizure System. Only five federal agencies are required to
report their seizures to the system, and only seizures over threshold
amounts must be reported.4 Similarly, state and local law enforcement
agencies are not required to report drug seizures, and the number of
different state and local agencies that reported drug seizure events directly
into the National Seizure System during FY 2008 represented only about
1 percent of law enforcement agencies nationwide.

       Recently, EPIC has begun importing more complete seizure
information to the National Seizure System by gathering such
information online from agencies. While this effort will increase the
amount of data EPIC collects, EPIC is just beginning this process of
working with state and local agencies willing to transmit seizure data
through the Portal. EPIC also allows individual users to report seizure
information through the Portal. However, only 24 percent of EPIC users
have active online accounts, indicating that the Portal is not yet a system
that individual users rely upon to report drug seizures to EPIC.

       We also found that EPIC is not yet the “hub for the HIDTAs,” which
was defined as one of EPIC’s five functions in its 1999 Principals Accord
and addressed in the 2000 General Counterdrug Intelligence Plan (the
Plan).5 The Plan stated that EPIC should serve as a hub by “centrally
receiving and sharing drug-movement-related information developed by

       4 The DEA, FBI, Customs and Border Protection, Immigration and Customs
Enforcement, and Coast Guard are required to report drug seizures over specific
threshold levels.

       5  The Anti-Drug Abuse Act of 1988 and the Office of National Drug Control Policy
(ONDCP) Reauthorization Act of 1998 authorize the Director of the ONDCP to designate
areas within the United States as High Intensity Drug Trafficking Areas if they
demonstrate serious drug trafficking problems with an impact in other areas of the
country. Currently, the HIDTA program includes 32 HIDTAs that receive federal
funding for infrastructure and joint initiatives that facilitate cooperation and
information sharing among federal, state, and local law enforcement organizations. 
Each HIDTA is led by an Executive Board comprising a representative from each
federal, state, and local agency that has a member permanently assigned to the HIDTA
Task Force in that HIDTA region. Neither EPIC nor the DEA exercise the control that
would be needed to standardize the exchange of drug-movement-related information
between EPIC and the HIDTA intelligence centers.


U.S. Department of Justice                                                                 v
Office of the Inspector General
Evaluation and Inspections Division
the HIDTA Intelligence Centers” as well as by “ensuring that EPIC’s Watch
and relevant database checks are a standard part of appropriate HIDTA
operational protocols.”6 While EPIC has made some effort to serve as an
information hub for the HIDTAs, for example by making information from
the Arizona HIDTA about traffic stops available to other HIDTAs, EPIC has
not been able to establish itself broadly as an information hub for the
HIDTA program. EPIC lacks policy-setting authority over the 32 regional
HIDTAs, and no policy requires the HIDTAs to provide drug-movement-
related information to EPIC or to ensure that contacting EPIC is
incorporated into their operational protocols. Consequently, EPIC cannot
provide the regional HIDTAs with information by connecting their
individual databases and providing them access to federal databases. The
Office of National Drug Control Policy (ONDCP) funds and oversees each
individual HIDTA’s budget and counterdrug plan, and approves task forces
formed by each HIDTA to ensure their efforts support national drug
control strategy. Beyond this level of oversight by the ONDCP, the HIDTAs
are largely autonomous entities.

EPIC’s coordination with federal and state intelligence organizations
is inconsistent.

       EPIC does not maintain an up-to-date list of key intelligence and
fusion centers and their points of contact and does not know if it has
users in each center. Of the 107 intelligence and fusion centers we
identified, 23 did not have staff authorized to use EPIC. For EPIC to
efficiently disseminate its information, it should have contacts in each
key intelligence center throughout the country and ensure that those
contacts are aware of EPIC’s products and services and how to access
them. Further, we found that some members of the FBI’s Joint
Terrorism Task Forces were not aware of EPIC’s Crime-Terror Nexus
Unit, whose products could provide support for the work of the Joint
Terrorism Task Forces.

      We compared EPIC’s mission, key products and services, customer
base, and geographic focus with other national counterdrug intelligence
centers identified in the 2000 General Counterdrug Intelligence Plan, and
we found that EPIC generally complements the other national centers.7

       6  The Watch is staffed 24 hours a day, 7 days a week, to respond to information
requests from EPIC users for simultaneous searches of 11 databases that can be used
to support investigations.
        7 The Plan was published by a White House task force in February 2000 to

clarify and make systemic improvements to U.S. drug intelligence and information
programs. The four national counterdrug intelligence centers identified in the Plan
were the El Paso Intelligence Center, in El Paso, Texas; the National Drug Intelligence
                                                                                  (Cont’d.)
U.S. Department of Justice                                                              vi
Office of the Inspector General
Evaluation and Inspections Division
However, there is overlap in some program areas. For example, we noted
that the case support provided by EPIC’s Asset Identification Unit
overlaps with the case support that the Department of the Treasury’s
Financial Crimes Enforcement Network provides.8 Both entities research
assets owned by or connected to suspects of investigations and their
associates.

       When we compared EPIC with other multi-agency centers having
counterdrug intelligence responsibilities, we found increasing potential
for overlap in certain areas. For example, while EPIC continues its
efforts to establish itself as the HIDTA hub, the HIDTAs are becoming
more involved with the Organized Crime Drug Enforcement Task Force
(OCDETF) Fusion Center in the exchange of drug trafficking investigative
information. With the emergence of new centers and EPIC’s expansion
into program areas that were not addressed in the Plan, there is an
increased likelihood for duplication of effort among the centers.
Therefore, updated guidance on the roles and missions of these various
counterdrug intelligence centers is needed.

       Our review also found that the number of inquiries to EPIC from
Department of Justice components, as measured in the number of times
EPIC conducted simultaneous searches of its databases by request,
decreased significantly between FY 2005 and FY 2009.9 At the same
time, the total number of requests for information submitted to EPIC by
state and local law enforcement doubled, rising from about 25,000
requests in FY 2005 to almost 55,000 requests in FY 2009. We are
concerned about the decline in the use of EPIC by Department
components over the last several years because, during this same time,
the Department significantly increased its activities related to combating
smuggling and its associated violence along the Southwest border.

EPIC does not sufficiently analyze some of its information for
patterns and trends that could aid interdiction efforts.

       Although EPIC maintains access to large amounts of information
in its own and other federal databases, we found that EPIC does not

Center, in Johnstown, Pennsylvania; the Financial Crimes Enforcement Network in
Vienna, Virginia; and the Crime and Narcotics Center in Langley, Virginia.
       8 After our review was complete, EPIC renamed the Asset Identification Unit the

Financial Targeting Unit.

       9 This does not include information obtained from EPIC that did not entail EPIC

simultaneously searching its databases or instances in which users viewed or obtained
information from EPIC’s Portal without submitting an information request to EPIC.


U.S. Department of Justice                                                          vii
Office of the Inspector General
Evaluation and Inspections Division
analyze several of its unique data sources. As a result, EPIC may be
overlooking trends, patterns, and connections that would assist EPIC
users in conducting interdiction activities effectively and safely. We
identified three examples of missed analytic opportunities within
datasets that EPIC manages.

      First, EPIC maintains the National Seizure System database, but
does not analyze it to identify drug trafficking patterns and trends. EPIC
generates reports that merely aggregate data entered into the system and
provide only limited analysis of the data.

       Second, EPIC does not analyze its repository of U.S. birth
certificates, passports, and other documents suspected of being
fraudulent or fraudulently obtained to identify patterns in their use by
traffickers. While EPIC’s Fraudulent Document Unit responds to law
enforcement requests to evaluate the validity of individual
U.S. documents, the unit does not have the staffing or technical
resources to identify trends and patterns in these documents.

       Third, EPIC does not fully analyze the information it collects on the
activities of drug traffickers to identify trends and patterns. EPIC
manages a program that collects information on the activities of
traffickers and disseminates the information to federal, state, and local
law enforcement agencies for their immediate use in interdiction
activities. However, EPIC does not review and analyze the information so
that trends and patterns that might have value to future operations can
be identified.

       We also found that EPIC users consider the information in a key
report that EPIC issues – the Gatekeeper report – to be out of date. EPIC
is the only intelligence center that produces and widely disseminates
reports that summarize the hierarchy, methods, and activities of the
major organizations controlling the drug smuggling corridors between
Mexico and the United States. Because the Gatekeeper reports are
updated infrequently, they are used by investigators as reference
material rather than in their day-to-day operations.

EPIC is not managing the performance of its programs through
effective performance measurement or collection of user feedback.

      We found that EPIC lacks measurable performance indicators for
many of its programs and does not systematically collect user feedback.
Of 18 EPIC programs we identified, only 11 had associated performance
measures within EPIC’s strategic plan. Of the 11 programs with


U.S. Department of Justice                                                 viii
Office of the Inspector General
Evaluation and Inspections Division
performance measures, EPIC had systems and processes in place to
track the performance of only 7.

      EPIC unit chiefs we interviewed were generally unaware of their
programs’ performance measures and were not using them to evaluate
operations. In addition, EPIC does not systematically solicit feedback
from its users and does not keep its users regularly informed of program
changes. Further, when it established new programs, EPIC did not
consistently define the purpose, scope, and objectives of the programs or
develop a plan for implementing them.

RECOMMENDATIONS

    To improve EPIC’s utility to the law enforcement and intelligence
community, we recommend that:

   1.	   EPIC expand its outreach and education program to promote the
         use of its products and services, including information about how
         to use the EPIC Portal.

   2.	   EPIC update its Principals Accord or adopt a comparable multi-
         agency framework that formalizes each member’s roles and
         responsibilities for implementing and sustaining EPIC’s programs
         and that provides a process for resolving differences that may
         arise.

   3.	   EPIC promote more complete reporting of drug seizure data to the
         National Seizure System through the EPIC Portal and traditional
         methods.

   4.	   The Office of the Deputy Attorney General work with the ONDCP
         to establish policy or guidance requiring HIDTAs to implement
         data and information sharing provisions to establish EPIC as
         their hub for seizure and drug movement information.

   5.	   EPIC establish points of contact at all national, regional, state,
         and local fusion centers to enhance information sharing and use
         of EPIC’s services and products.

   6.	   EPIC issue more substantive analytical products based on the
         seizure data collected in the National Seizure System.

   7.	   EPIC assess the feasibility of analyzing digitally scanned
         fraudulent documents to identify trends in both sources and


U.S. Department of Justice                                                ix
Office of the Inspector General
Evaluation and Inspections Division
         patterns of fraudulent document use, and of providing the data to
         other intelligence centers for their use.

   8.	   The DEA assess the feasibility of enhancing the capability at
         EPIC to analyze tactical information to identify links, trends, and
         patterns in drug trafficking activity in support of interdiction
         operations and investigations.

   9.	   EPIC examine new approaches for making Gatekeeper
         information more current and accessible.

   10. EPIC develop performance metrics for all of EPIC’s programs and
       operations that define relevant and objective standards, and use
       the metrics to evaluate program effectiveness.

   11. EPIC expand its existing mechanisms to systematically collect
       feedback on EPIC’s products and services from users.




U.S. Department of Justice                                                 x
Office of the Inspector General
Evaluation and Inspections Division
                                 TABLE OF CONTENTS 


 
BACKGROUND..................................................................................... 1
 

RESULTS OF THE REVIEW ................................................................ 13
 

CONCLUSIONS AND RECOMMENDATIONS ....................................... 44
 

APPENDIX I: METHODOLOGY OF THE OIG REVIEW ........................ 47
 

APPENDIX II: NATIONAL AND REGIONAL INTELLIGENCE CENTERS 

WITH COUNTERDRUG RESPONSIBILITIES ........................................ 49
 

APPENDIX III: DATABASES QUERIED IN AN EPIC CHECK ................ 51
 

APPENDIX IV: RESULTS OF OIG SURVEY OF EPIC CUSTOMERS ..... 53
 

APPENDIX V: ACRONYMS ................................................................. 67
 

APPENDIX VI: THE OFFICE OF THE DEPUTY ATTORNEY GENERAL 

RESPONSE TO DRAFT REPORT ......................................................... 68
 

APPENDIX VII: OIG ANALYSIS OF THE OFFICE OF THE DEPUTY

ATTORNEY GENERAL RESPONSE...................................................... 70
 

APPENDIX VIII: THE DRUG ENFORCEMENT ADMINISTRATION 

RESPONSE TO DRAFT REPORT ......................................................... 71
 

APPENDIX IX: OIG ANALYSIS OF THE DRUG ENFORCEMENT

ADMINISTRATION RESPONSE ........................................................... 77
 




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                  BACKGROUND 



Introduction

       The border between the United States and Mexico presents a long-
standing challenge to U.S. law enforcement. Criminal organizations
smuggle illicit drugs, undocumented aliens, and other contraband across
the border into the United States, and cash and weapons into Mexico. In
its June 2009 National Southwest Border Counternarcotics Strategy, the
Office of National Drug Control Policy (ONDCP) estimated that 90 percent
of the cocaine in U.S. drug markets transits through the Mexico and
Central America corridor. Additionally, the 2010 National Drug Threat
Assessment stated that “Mexican drug trafficking organizations continue
to represent the single greatest drug trafficking threat to the
United States.”

      In 1974 the Department of Justice (Department) published a
study, A Secure Border: Analysis of Issues Affecting the United States
Department of Justice, that detailed drug and border enforcement
strategies and programs. The study recommended that the Department
establish an interagency border intelligence center to:

   1. consolidate, analyze, and disseminate on request all-source data
      regarding border-related violations;
   2. identify conspirators and the scope and method of their activities;
   3. assess and evaluate border conspiracy operations; and
   4. develop and maintain coordination with the Southwest border
      enforcement agencies so that a prompt response can be mounted
      for “hot” intelligence items developed by one agency that fall under
      the responsibility of another.

       In response to that study, the Department established the El Paso
Intelligence Center (EPIC) in El Paso, Texas. Led by the Drug
Enforcement Administration (DEA), EPIC is intended to serve as a
tactical intelligence center, supported by databases and resources from
member agencies.10 EPIC provides tactical information to federal, state,
local, tribal, and international law enforcement agencies conducting
interdiction activities, particularly along the Southwest border. EPIC’s
stated mission is to support U.S. law enforcement and interdiction

       10  Tactical intelligence is information on which immediate enforcement action –
arrests, seizures, and interdictions – can be based.


U.S. Department of Justice                                                            1
Office of the Inspector General
Evaluation and Inspections Division
components through the timely analysis and dissemination of
intelligence on illicit drug and alien movements, and on criminal
organizations responsible for these illegal activities, within the
United States, on both sides of the U.S.-Mexico border, across the
Caribbean, and from other points of origin within the Western
Hemisphere en route to the United States.

       The 2000 General Counterdrug Intelligence Plan issued by a
White House task force identified EPIC as one of four primary national-
level centers with drug intelligence responsibilities.11 Further, the Plan
stated that “EPIC will be strengthened as the principal center for
operational and investigative intelligence analysis of illicit drug
movements in support of interdiction activities and U.S. law
enforcement.” The ONDCP’s 2009 National Southwest Border
Counternarcotics Strategy refers to EPIC as the “DEA’s most important
intelligence sharing organization focusing on the Southwest border.”

      The sections below provide background on EPIC’s staffing, users,
and budget; its management structure; and its operational capabilities.
A description of the purpose and scope of this Office of the Inspector
General (OIG) review then follows.

EPIC’s Staff, Users, and Budget

      Staffing. Twenty-one agencies maintain staff at EPIC. As of
August 2009, EPIC had 343 investigative, analytic, and support staff on
site. One hundred and sixty were from the Department, 81 were from
other federal agencies, 6 were from state and local agencies, and 96 were
contractors.

      Staffing at EPIC increased 22 percent from fiscal year (FY) 2007 to
FY 2009. In the next several years, up to 193 additional Department of
Justice, Department of Homeland Security, and Department of Defense
personnel are slated to be assigned to EPIC to support its expanding
programs and new initiatives. Full implementation of these expansions
and initiatives would increase staffing at EPIC by 56 percent. Ninety
percent of these additional personnel would come from agencies other
than the DEA. Figure 1 depicts staffing trends and projections at EPIC.




       11 The other three national counterdrug intelligence centers identified in the

plan were the National Drug Intelligence Center, in Johnstown, Pennsylvania; the
Financial Crimes Enforcement Network in Vienna, Virginia; and the Crime and
Narcotics Center in Langley, Virginia.


U.S. Department of Justice                                                              2
Office of the Inspector General
Evaluation and Inspections Division
                        Figure 1: EPIC Staffing, FY 2001 – Planned

                  600

                  500

                  400
       Hundreds


                                                                              375
                  300
                        132   132               151               194   201
                  200               133   135         144   135

                  100   163   164   153   152   148   147   147   142   142   161
                    0




                                          DEA    Non DEA

       Source: EPIC and OIG analysis.

      Users. EPIC supports more than 19,000 individual users and also
provides information to a wider population of law enforcement users
through High Intensity Drug Trafficking Area (HIDTA) intelligence
centers, state and local fusion centers, and other federal centers.12
Appendix II contains a list of national and regional intelligence centers
that have responsibilities related to drug trafficking and with which EPIC
shares information. For officers or analysts to become EPIC users, they
must contact EPIC and request access to EPIC information. EPIC
requires that applicants include their supervisor’s and security
manager’s contact information in their applications. For an application
to be approved, the security manager must verify that the applicant’s
parent agency has the applicant’s fingerprints on file. EPIC informs the
applicant’s supervisor of the application so that the supervisor can
contact EPIC if the applicant should not be provided access. EPIC has
historically required state and local users to follow this process and



         12 The Anti-Drug Abuse Act of 1988 and the Office of National Drug Control Policy

(ONDCP) Reauthorization Act of 1998 authorize the Director of the ONDCP to designate
areas within the United States as High Intensity Drug Trafficking Areas if they
demonstrate serious drug trafficking problems with an impact other areas of the
country. Currently, the HIDTA program includes 32 HIDTAs that receive federal
funding for infrastructure and joint initiatives that facilitate cooperation and
information sharing among federal, state, and local law enforcement organizations in an
effort to reduce drug trafficking.


U.S. Department of Justice                                                              3
Office of the Inspector General
Evaluation and Inspections Division
began applying it to federal users in 2006. Figure 2 shows the
distribution of EPIC users by agency type.

                   Figure 2: Distribution of EPIC’s Users
                         by Agency Type, FY 2009




                                                      24%



                                                               6%
                               55%

                                                       15%




                         DEA
                         Other DOJ Agencies (e.g., FBI, ATF)
                         Non‐DOJ Federal Agencies (e.g., CBP, ICE)
                         State and Local Police and Sheriff Departments

                   Source: OIG analysis.


       Budget. The DEA provides most of EPIC’s non-salary, operational
funding. It contributed $18 million (92 percent) of the FY 2009 budget of
$19.6 million.13 The remaining $1.6 million (8 percent) was paid by the
Federal Bureau of Investigation (FBI); the Office of Community Oriented
Policing Services; intelligence agencies; federal, state, and local asset
forfeiture funds; the Department of Transportation; and the HIDTA
program for projects these agencies conducted at or with EPIC. Figure 3
shows EPIC’s operational budget and the share that the DEA funded
from FY 2005 to FY 2009. Between FY 2005 and FY 2009, other
agencies’ contributions to EPIC’s operational budget declined from
$3.1 million to $1.6 million, even as these other agencies increased the
number of staff they assigned to EPIC.




       13Each agency represented at EPIC assumes the salary and benefit costs of its
own employees.


U.S. Department of Justice                                                             4
Office of the Inspector General
Evaluation and Inspections Division
        Figure 3: EPIC’s Operational Budget and Percentage of 

                  DEA Funding, FY 2005 – FY 2009 

                          25.0


                          20.0


                          15.0
               Millions



                                                                  19.1     18.0
                          10.0
                                  12.2      12.5
                                                        11.9
                           5.0

                                   3.2       2.8
                           0.0                          1.5        1.4      1.6

                                 FY 2005   FY 2006    FY 2007   FY 2008   FY 2009

                                    Other Funds      DEA Provided Funds

              Source: OIG analysis.


EPIC’s Management Structure

       EPIC’s management structure is defined in its Principals Accord
(Accord), which sets forth EPIC’s mission statement, objective, functions,
membership, staffing, and management principles. The Accord defines
three levels of membership for agencies affiliated with EPIC.

   	 Principal Members are “federal agencies that directly support the
      national effort in the coordinated drug intelligence process by
      offering intelligence information and a minimum of seven
      personnel to EPIC.”14
   	 Participating Members are “any federal agency that directly
      supports the national effort in coordinated drug intelligence but
      that provides less than seven personnel to EPIC.”
   	 Associate Members are “any criminal justice agency, as well as
      State and Local agencies, involved in the investigation and


       14 As of August 2009, Principal Members are three Department components (the

DEA, the Bureau of Alcohol, Tobacco, Firearms and Explosives, and the FBI) and three
components of the Department of Homeland Security (Customs and Border Protection,
Immigration and Customs Enforcement, and the Coast Guard).


U.S. Department of Justice                                                          5
Office of the Inspector General
Evaluation and Inspections Division
       enforcement of controlled substance laws and covers those
       agencies with written agreements with EPIC prior to the
       implementation of the Accord.”

       A Principals Group of six Intelligence Chiefs from Principal Member
agencies provides “internal interagency management and coordination,”
oversees EPIC operations, and is responsible for approving new members
and making changes in agencies’ membership status. EPIC’s Director
oversees the center’s operations, presents requests for EPIC membership
additions or changes to the Principals Group, and serves as chairperson
of the Principals Group. The Accord calls for EPIC’s Director to report to
the DEA’s Chief of Intelligence; thus, the EPIC Director has always been
a DEA employee. The position of Deputy Director may be occupied by a
representative from any agency and is currently held by a representative
of the Department of Homeland Security’s Customs and Border
Protection (CBP).

EPIC’s Operational Capabilities

      The EPIC staff is organized into three operational sections that
provide intelligence support to the field: the Watch, Tactical Operations,
and Research and Analysis.15 Figure 4 shows EPIC’s organizational and
DEA reporting structure.




        15 Other EPIC sections that provide administrative and technical support to

operational units include: (1) the Information Management Section that maintains
EPIC databases and applications, (2) the Communications Management Unit that
maintains the flow of electronic information between EPIC and other law enforcement
agencies, and (3) the Database Management Unit that reviews drug seizure data entered
into the National Seizure System.


U.S. Department of Justice                                                         6
Office of the Inspector General
Evaluation and Inspections Division
             Figure 4: EPIC Operational Reporting Structure




Note: After our review was completed, EPIC reported that it had renamed the Asset
Identification Unit the Financial Targeting Unit and renamed the Predictive Analysis
Unit the Predictive Analysis and Targeting Unit. EPIC also stated that it moved its
Maritime Intelligence Program from the Tactical Operations Section to the Research
and Analysis Section.

Source: EPIC.

Watch Section

      The Watch Section is staffed 24 hours a day, 7 days a week, to
respond to requests from EPIC users for information to support their
investigations. EPIC responds to requests by performing “EPIC Checks,”
which are simultaneous searches of four databases that EPIC owns and
seven additional databases that EPIC can access.16 The following
databases are included in an EPIC Check (see Appendix III for
descriptions of the databases):

   Internal Databases
      EPIC 10 Database
      EPIC Law Enforcement Information Search and Analysis (ELISA)

       16 After the completion of this review, EPIC reported that it had added the Drug

Precursor Database, the DEA’s License Plate Reader Database, and the DEA’s Analysis
and Resource Tracking System.


U.S. Department of Justice                                                             7
Office of the Inspector General
Evaluation and Inspections Division
      EPIC Internal Database
      National Seizure System

   External Databases
      DEA’s Narcotics and Dangerous Drugs Information System
      Department of Homeland Security’s Treasury Enforcement
       Communications System II
      FBI’s National Crime Information Center System
      CBP’s Central Index System
      Federal Aviation Administration’s Aircraft Registration System
      Federal Bureau of Prisons’ SENTRY
      United States Marshals Service’s Warrant Information Network

       The Watch Section’s General Watch provides tactical intelligence
support to law enforcement and interdiction personnel conducting
criminal investigations and interdiction operations. In response to
requests by law enforcement officers, the General Watch also posts EPIC
Lookouts, which alert law enforcement officers to be on the lookout for
specific individuals, vehicles, and vessels that are of interest to law
enforcement. In addition, when the General Watch receives information
about drug seizures, EPIC staff enters it in the National Seizure System,
which is the repository for the reporting of drug seizures within the
United States.17

      EPIC receives requests for information through its General Watch
from users in the Department of Justice, from other federal agencies, and
from state and local law enforcement officers. Users may also obtain
information from EPIC by contacting analysts within EPIC directly. If
these analysts conduct EPIC Checks, the requests will be counted in
EPIC’s database of requests for information. The number of EPIC Checks
performed on behalf of Department components, other federal agencies,
and state and local agencies is depicted in Figure 5.18

       17  The National Seizure System, which contains information on seizure events
since 2000, is used in federal and regional drug trafficking analyses, and in the
development of drug policy. (Seizure information from the 1970s through 1999 is
maintained in the EPIC Internal Database.) The DEA, FBI, CBP, Immigration and
Customs Enforcement, and Coast Guard are the only agencies required to report drug
seizures to the National Seizure System, and they must do so only if the amounts seized
meet specific threshold levels.

       18 The information in Figure 5 does not include requests for information that

did not result in a simultaneous search of the EPIC databases or instances in which
users viewed or obtained information from EPIC’s Portal without submitting an
information request to EPIC.


U.S. Department of Justice                                                             8
Office of the Inspector General
Evaluation and Inspections Division
          Figure 5: Requests for Information by Agency Type, 

                         FY 2005 – FY 2009 


  60000

  50000

  40000

                                                              State and Local
  30000
                                                              Department
  20000                                                       Other Federal

  10000

      0
           FY 2005   FY 2006    FY 2007   FY 2008   FY 2009

Source: EPIC.

       The portion of requests for information attributable to each of
these groups has shifted significantly in the last 5 years. Since FY 2005,
the number of requests for information submitted by Department users
has been decreasing, falling from about 40,000 in FY 2005 to about
20,000 in FY 2009. Requests from non-Department federal users, who
have always made the fewest number of requests for information from
EPIC, have trended slightly downward. Meanwhile, the total number of
requests for information submitted to EPIC by state and local law
enforcement has steadily increased, rising from about 25,000 requests in
FY 2005 to almost 55,000 requests in FY 2009. In FY 2009, state and
local law enforcement generated 60 percent of EPIC’s 89,932 requests for
information.

      In addition to the General Watch’s activities, three units within the
Watch provide specialized investigative support to law enforcement and
interdiction agencies. The Maritime Intelligence Unit supports maritime
interdiction agencies, such as the Coast Guard, by conducting EPIC
Checks on individuals on vessels boarded because of their suspected
involvement with smuggling. The EPIC Gun Desk supports the
disruption of illegal weapons trafficking by compiling information on
weapons seizures and querying databases for the Bureau of Alcohol,
Tobacco, Firearms and Explosives’ (ATF) field personnel and participants
at EPIC. The Military Sealift Command conducts EPIC Checks on non-
military personnel, such as crew, contractors, and visitors, scheduled to
board or work on U.S. cargo and other vessels.

U.S. Department of Justice                                                      9
Office of the Inspector General
Evaluation and Inspections Division
Tactical Operations Section

       The Tactical Operations Section operates EPIC’s programs to
collect information along certain sections of the Southwest border, the
Caribbean, and Eastern Pacific, and disseminates the information to
appropriate law enforcement agencies. As part of its maritime program,
EPIC participates in a maritime intelligence group that works
collaboratively to collect and share information used to interdict
contraband being smuggled into the United States. The agencies in this
group target different geographic areas. When one of these agencies
collects tactical information based on the maritime movements of drug
traffickers, it creates tactical reports and circulates them to other
members of the group for verification. The group provides these reports
to U.S. law enforcement agencies engaged in maritime drug interdiction
to assist them in planning operations and directing resources to specific
threats.

       The Tactical Operations Section also manages EPIC’s beacon
tracking program and Air Watch. The beacon tracking program
continuously monitors beacons used by law enforcement personnel,
either for their own safety or to assist them in tracking suspects of their
investigations. EPIC’s Air Watch supports aviation- and aircraft-related
investigations by providing information on aircraft, pilots, and
passengers suspected of having links to criminal activity, and by issuing
EPIC Lookouts on movements of suspect aircraft and pilots.

Research and Analysis Section

       EPIC’s Research and Analysis Section produces reports on
smuggling practices and seizure trends, and provides specialized support
to investigations. Within this section, the Southwest Border Unit
researches and produces reports on drug trafficking organizations,
known as “gatekeepers,” that control contraband smuggling routes along
the U.S.-Mexico border. EPIC’s “Southwest Border Gatekeepers” report
is the only continuously maintained summary of the hierarchy, methods,
and activities of the major players operating along the border between
Mexico and the United States. The following four additional units
provide other types of specialized support.

      EPIC’s newly established Predictive Analysis Unit produces reports
summarizing drug seizures along routes identified as drug smuggling
corridors and provides these reports to interdiction agencies.

      The Asset Identification Unit researches commercial, federal, and
open source databases to identify properties, businesses, vehicles, and

U.S. Department of Justice                                               10
Office of the Inspector General
Evaluation and Inspections Division
financial assets owned by individuals who are under investigation for
drug trafficking and money laundering.

      The Crime-Terror Nexus Unit conducts research and analysis on
individuals under investigation by law enforcement to determine whether
criminal proceeds are used in support of terrorism.

      The Fraudulent Document and Tactical Bulletin Unit provides two
distinct types of services. The Fraudulent Document Unit examines
seized U.S. documents such as passports and birth certificates
suspected of being fraudulent or fraudulently obtained. The Tactical
Bulletin Unit reviews information contained in drug seizure reports and
creates bulletins on drug transportation trends and practices that have
implications for officer safety or that could assist law enforcement in
drug interdiction. This unit disseminates the tactical bulletins to over
800 law enforcement personnel.

Additional EPIC Functions

      Liaison. EPIC allows representatives of 21 (primarily federal)
agencies to share intelligence and investigative leads, and to coordinate
Southwest border interdiction operations. EPIC also facilitates tactical
information sharing between U.S. agencies and the governments of
Colombia and Mexico through liaisons embedded at EPIC.

      EPIC Portal. The EPIC Portal, established in 2006, provides users
online access to certain EPIC information and databases. Through the
Portal, users can:19

   	 request EPIC Checks from the General Watch (EPIC responds to
      requests by e-mail),
   	 search the databases that EPIC owns (EPIC 10, the EPIC Internal
      Database, ELISA, and the National Seizure System),
   	 enter seizure events into the National Seizure System,
   	 display the location of drug seizure events by state and county,

       19 After our review was completed, EPIC reported that it had added access to

two additional resources to the Portal: (1) the Drug Precursor Database and (2) the
capability to access OneDOJ. The Department’s OneDOJ Database is a repository for
law enforcement information such as open and closed case documents, investigative
reports, witness interviews, criminal event data, criminal history and incarceration
information, and identifying information about individual offenders. It allows
Department and regional criminal law enforcement users to share information
internally with other investigative components.


U.S. Department of Justice                                                         11
Office of the Inspector General
Evaluation and Inspections Division
      display seizure event information on a map, and
      obtain 34 standard reports and EPIC published reports.

      Interdiction Training. EPIC provides training to personnel in other
law enforcement agencies that conduct interdiction operations. The
courses, mainly tailored to the needs of state and local law enforcement,
cover the interdiction of passenger vehicles on highways, the interdiction
of commercial vehicles on highways, and interdiction in public spaces
such as airports, hotels, and conveyances such as aircraft, buses, and
trains. In FY 2008, EPIC conducted 29 courses throughout the
United States for 3,027 officers.

      Acts as Law Enforcement Interface for the Federal Aviation
Administration. After the Federal Aviation Administration’s (FAA) law
enforcement authority was transferred to the Transportation Security
Administration following the Homeland Security Act of 2002, EPIC
assumed responsibility for providing information from its databases to
the FAA when the FAA needs information about suspicious activity
involving aircraft.

      Backup Beacon Monitoring Agency for the Joint Interagency Task
Force-South. If the Joint Interagency Task Force-South, which detects
and monitors illicit air and maritime targets, is unable to maintain
continuous beacon monitoring (for example, because of an evacuation
due to weather), EPIC adds the task force’s beacon signals to its own
system and monitors them until the task force is once again able to
perform this function.

Purpose and Scope of the OIG’s Review

       In this review, the OIG assessed EPIC’s analysis and dissemination
of intelligence in support of law enforcement interdiction operations,
activities, and investigations; which agencies are using EPIC and how
EPIC is supporting these agencies’ investigations and operations; and
whether there are opportunities for EPIC to expand its user population.
We also examined the utility of EPIC’s products and services through a
survey of EPIC vetted users. We conducted our fieldwork from March to
September 2009 and focused on EPIC’s operations between FY 2005 and
FY 2008. More details on our methodology are discussed in Appendix I.




U.S. Department of Justice                                               12
Office of the Inspector General
Evaluation and Inspections Division
                          RESULTS OF THE REVIEW 




       We found that EPIC is highly valued by its partner
       agencies and users, but users also report needing more
       information about EPIC and improved access to its
       online information system. In addition, we identified
       several weaknesses that have prevented EPIC’s
       operations and programs from being as effective as they
       could be. EPIC did not adequately staff some key
       interdiction programs and, as a result, its service to
       users was disrupted or diminished. EPIC also did not
       develop    the   National    Seizure   System     into   a
       comprehensive database of drug seizures nationwide or
       establish itself as the hub for the HIDTA program.
       Further, EPIC did not coordinate consistently with other
       intelligence centers. We also found that EPIC does not
       analyze significant information and, as a result, may not
       be identifying drug trafficking trends and patterns that
       could assist interdiction activities. Further, EPIC is not
       managing its programs through effective performance
       measurement or collection of user feedback.


EPIC users report high satisfaction with its products and services,
but they also report needing more information about EPIC and
improved access to its Portal.

       We surveyed law enforcement personnel and analysts within the
Department, other federal agencies, and state and local agencies who are
users of EPIC, and found that those who had used EPIC’s products
generally rated the quality high and reported the products were valuable
to their operations. However, we also found that users need more
information about EPIC and improved access to its Portal.

      We sent 2,499 surveys to EPIC users asking about their
experiences with EPIC and their views about the value and quality of
EPIC’s products and services.20 We received 765 responses that we were




       20  We summarize the results in this section and provide more detail on the
results in Appendix IV. Our survey methodology is summarized in Appendix I.


U.S. Department of Justice                                                           13
Office of the Inspector General
Evaluation and Inspections Division
able to analyze. It is important to note that we did not survey law
enforcement personnel who had never established accounts at EPIC.21

       Survey respondents who had used EPIC’s products generally rated
the quality high and reported the products were valuable to their
operations. Sixty-two percent of respondents stated that EPIC’s products
and services had been “very helpful” in supporting their operations, while
34 percent indicated these had been “somewhat helpful.” Only 4 percent
of the 638 respondents who answered this question indicated that EPIC
products and services had been “not very helpful” or “not helpful at all.”
We asked respondents who reported that an EPIC product or service
added “little value” or “no value” to their operations to explain the reason
for this. Overall, few respondents reported that EPIC’s products and
services had diminished value because of a shortcoming in the product;
rather, the primary reasons were that the respondents had not used the
product or service (either because they were unaware of it or because
they did not know how to use it) or that the product did not apply to
their mission.

       When asked to evaluate EPIC’s products and services based on
four specific criteria – accuracy, relevance, timeliness, and actionability –
a large majority of respondents rated EPIC’s products and services highly
on all four. See Table 1.

 Table 1: Percentage of Respondents Reporting that EPIC Products
               and Services Fully Met Their Criteria
                                           Products and Services
                        Criteria
                                             Fully Met Criteria
                 Accurate                             82%
                 Relevant                             80%
                 Timely                               76%
                 Actionable                           74%
                 Source: OIG survey.

       In response to our question about whether there were additional
comments about EPIC, many survey respondents stated that EPIC could
improve the utility of its products and services to law enforcement by
providing more information about these products and how to access
them. For example, respondents stated, “EPIC needs to get out into the
field to educate local, state and federal agencies of its existence and what
valuable services it does provide,” “I feel that I don’t know enough about

       21 EPIC users represent about 2 percent of all law enforcement personnel in the
United States.


U.S. Department of Justice                                                         14
Office of the Inspector General
Evaluation and Inspections Division
EPIC and therefore I was not using it to its fullest potential,” and “I
would like to use EPIC to support investigations but am not sure in what
areas EPIC can and will support other [agencies’] investigations.”

       EPIC senior managers told us that EPIC does not have a formal
marketing program and relies on presentations made during the drug
detection and interdiction training sessions it conducts to expose federal,
state, and local partners to its products and services. In FY 2008, EPIC
provided interdiction training to approximately 3,000 officers. Our survey
showed that 16 percent of survey respondents indicated they first learned
of EPIC through its interdiction training, while over 50 percent reported
they learned about EPIC through other training or from coworkers.

      We also asked in our survey about why EPIC users were not using
EPIC’s Portal. During our review, EPIC managers told us that their
vision was to significantly expand the use of EPIC’s Portal for customers
to access EPIC information. However, only 4,638 (24 percent) of EPIC’s
19,416 users had active Portal accounts as of July 2009, and in FY 2008
only 2 percent of the requests EPIC received for information were
submitted through the Portal. Our survey of 765 users indicated that
the primary reasons that Portal usage remains low are that users need
additional information about what the Portal provides or training in how
to use the Portal (90 respondents) and because users find obtaining and
maintaining active accounts is difficult (53 respondents).22

      Overall, our results indicate that EPIC has the opportunity to
improve its utility to the law enforcement and intelligence community by
increasing its outreach efforts, and particularly by improving the
accessibility of the EPIC Portal.

Recommendation

       We recommend that EPIC:

       1. Expand its outreach and education program to promote the use
          of its products and services, including information about how to
          use the EPIC Portal.


         22 EPIC provides little training and information to its users about how to use the

Portal. EPIC Portal training consists of a computer-based training module hosted on
the Portal itself that describes the Portal’s capabilities, components, and applications.
In addition, during FY 2009, EPIC staff trained 48 users during 6 sessions on the Portal
given at EPIC and 59 users during 3 off-site sessions. EPIC stated that users also can
call or e-mail to request assistance and training.


U.S. Department of Justice                                                             15
Office of the Inspector General
Evaluation and Inspections Division
EPIC has not adequately staffed several key interdiction programs
or ensured that member agencies collaborate effectively to sustain
programs and share information.

      We found that EPIC could not sustain staffing for several key
interdiction programs, and as a result, service to its users was disrupted
or diminished for approximately a year. We found that EPIC’s programs
to help investigators identify fraudulent documents was unstaffed from
December 2007 to January 2009, and its program to provide
investigators with information pertaining to pilots, suspect aircraft, and
aircraft movements was unstaffed for approximately 9 months of 2007.

       Further, EPIC did not maintain a consistent level of staffing and
support for its efforts to collect information on the maritime activities of
drug traffickers, with a result that EPIC’s contributions to a maritime
intelligence group decreased 59 percent between FY 2007 and FY 2008.
Because EPIC is the agency with the strongest collection capability for
certain maritime drug smuggling corridors to the United States, the
failure to staff and support this group likely hindered drug trafficking
interdiction efforts.

      We also identified two programs that were not fully implemented
because national policy was lacking and because EPIC did not have the
operational control to require the law enforcement participation
necessary to execute these programs. First, EPIC’s process for
aggregating drug seizure information into a comprehensive database into
which all drug seizures are reported nationwide has not produced a
complete database of seizures. Second, EPIC has not established itself
as the hub for the High Intensity Drug Trafficking Area program, which
coordinates drug control efforts among federal, state, and local law
enforcement agencies through 32 task forces and allied intelligence
centers.

       In addition, EPIC’s coordination with other federal and state
intelligence centers is inconsistent. Specifically, EPIC does not maintain
an up-to-date list of key centers and their points of contact, and cannot
ensure it has users in each center. We also found that some members of
the FBI’s Joint Terrorism Task Forces were not aware of EPIC’s Crime-
Terror Nexus Unit, whose products could provide direct support to the
Joint Terrorism Task Forces. We discuss these shortcomings in the
following sections.




U.S. Department of Justice                                                 16
Office of the Inspector General
Evaluation and Inspections Division
EPIC’s Fraudulent Document Unit was unstaffed for more than a year.

      EPIC did not maintain staff in its Fraudulent Document Unit
between December 2007 and January 2009, and as a result the unit
developed a backlog of 7,000 unexamined documents and did not
provide support to law enforcement officers who contacted EPIC for
information during this period. The Fraudulent Document Unit supports
law enforcement agencies through its examination of U.S. documents,
such as passports and birth certificates that are fraudulent or are
authentic but were obtained or used fraudulently. Prior to December
2007, the unit received and verified documents for authenticity and
stored them on microfilm. In December 2007, the unit’s three
Department of Homeland Security (DHS) staff retired or were reassigned
by DHS and were not replaced, leaving the unit without personnel and
unable to respond to user requests.

      In January 2009, DHS’s Customs and Border Protection agency
assigned three analysts to the unit, and the unit resumed responding to
law enforcement officers who requested assistance in assessing
documents. However, according to the Unit Chief, as of fall 2009 the
unit still lacked sufficient staff to respond to these requests on a timely
basis, to examine the 20 to 150 new documents received each week, and
to examine the documents in the backlog.

EPIC’s Air Watch was unstaffed for 9 months.

      EPIC also was unable to maintain continuous staffing of its Air
Watch. Before 2007, the Federal Aviation Administration provided staff
to support the Air Watch. In 2002, the Transportation Security
Administration (TSA) was formed, and the FAA positions were converted
to TSA positions. In 2007, the TSA removed its personnel from EPIC
and, as a result, EPIC could not provide specialized information in
support of investigations involving aircraft or pilots until 2008 when
EPIC staffed the unit with Air National Guard personnel. During the
time when the Air Watch was unstaffed, EPIC continued to provide
investigators with information from EPIC’s databases, including the
FAA’s Aircraft Registration System, when requested, but could not
provide specialized support such as information on suspect aircraft
movements or additional analysis. Customs and Border Protection’s Air
Marine Operations Center, located in San Diego, California, provided this
specialized support while EPIC could not.




U.S. Department of Justice                                               17
Office of the Inspector General
Evaluation and Inspections Division
EPIC did not maintain staffing sufficient to sustain its contributions to a
maritime counterdrug intelligence group.

      EPIC also did not maintain a consistent level of staffing and
support to a maritime intelligence group in which it participates. EPIC is
one of five agencies in a maritime intelligence group that collects
information on the maritime movements of drug traffickers in the
corridors to the United States and provides information to law
enforcement agencies so they can interdict vessels suspected of being
used to smuggle contraband into the United States.

       Because, of the agencies in this maritime group, EPIC is the federal
entity with the strongest collection capability for certain corridors to the
United States, it is important that EPIC fully maintain its collection
efforts and participation in the group. In a memorandum to us, an
analyst from an agency providing oversight of the maritime intelligence
group wrote:

       EPIC’s value in the program extends beyond sheer volume
       and quality of reporting. While Joint Interagency Task
       Force-South has focused on attacking the source and
       departure zones EPIC has often been the sole-source of effort
       directed against the arrival zones, several steps closer to the
       Southwest border . . . .

       Noting that EPIC has the primary role for collecting information in
this region, another analyst we interviewed stated that “if they don’t
[collect] it, nobody else will.” As Figure 6 on the next page shows, EPIC
has been a major contributor to the group. In FY 2008 EPIC credited its
maritime collection efforts with contributing to 41 arrests and the seizure
of 11 vessels and 30.5 metric tons of cocaine.

       However, from FY 2005 through FY 2008, the number of tactical
reports EPIC contributed to this maritime intelligence group decreased
from 2,330 to 819 (65 percent) (see Figure 6). In that time, it decreased
its relative contributions to the group from 42 percent to 25 percent,
based on total tactical reports. EPIC also failed to meet its internal
performance measure goal of issuing five drug movement alerts per
month, issuing only nine for FY 2008. It also failed to meet its target of
identifying three major maritime drug transportation groups for FY 2008,
identifying only one.




U.S. Department of Justice                                               18
Office of the Inspector General
Evaluation and Inspections Division
          Figure 6: Contributions of Tactical Reports to a Maritime 

                       Intelligence Group by Agency 


  7,000


  6,000                                               316
                                                      188
                                                                       226
  5,000            760                     1,115
                                                                        63
                             310
                                                            1,002
  4,000            824
                                           1,797                                                  93

  3,000
                                                                                              142
                  1,301                                     1,926
                                                                                     685

  2,000
                                                                                    1,519
                                           2,659
                  2,330
  1,000                                                     2,010

                                                                                     819
     0
                 FY 2005                  FY 2006           FY 2007                FY 2008


            El Paso Intelligence Center                      Joint Interagency Task Force‐South
            Fleet Information Operation Center               Panama Express
            Maritime Intelligence Fusion Center Atlantic



          Source: EPIC.


      EPIC’s maritime intelligence managers and staff told us that the
decrease in tactical reports was due to changes in drug trafficking
methods that hampered the collection of information on maritime drug
movements, and additional factors specific to EPIC that are described
below. As Figure 6 shows, the overall output of the group has decreased
since 2006.

        Additional factors and EPIC’s management decisions further
contributed to EPIC’s decline in productivity. According to written
information provided by EPIC, EPIC shifted personnel from its maritime
to its land-based program due “to an increase in reported violence along
the Southwest border.” EPIC’s Director noted that EPIC staff who collect
information on maritime and land-based drug trafficker movements come
from the same limited pool. The Director said he decided how much of

U.S. Department of Justice                                                                             19
Office of the Inspector General
Evaluation and Inspections Division
their limited time to allocate to each collection activity based on where
the manpower was likely to have the greatest and most immediate value.
Further, four staff members supplied by the DEA left EPIC during
FY 2008 and were not replaced for approximately 8 months. EPIC also
experienced equipment problems for a period of time in FY 2008.

       Analysts from one of the other agencies in the maritime intelligence
group stated they noted a “drop-off” in the quality and quantity of EPIC’s
contributions and in the frequency with which EPIC staff provided
information to them beginning in 2008. One analyst stated that while
this decrease in EPIC’s contributions did not cause the mission to
collapse, it adversely affected the strength of individual interdiction
cases.

EPIC’s Principals Accord is outdated, is not used effectively, and does not
define the roles and responsibilities of its member agencies.

       EPIC lacks a current, coordinated multi-agency agreement that
clearly delineates the roles, responsibilities, and contributions of its
member agencies. EPIC does maintain bilateral Memoranda of
Understanding with agencies in every state and with several federal
agencies, foreign governments, and agencies. EPIC’s Principals Accord
no longer effectively serves as a multi-agency agreement that defines
member agency participation, does not establish program goals and
priorities, and does not ensure regular meetings and collaboration among
the partners. We believe that the absence of a current multi-agency
agreement has contributed to problems with the continuity of EPIC’s
programs and agency collaboration. While EPIC relies on its member
agencies to staff, implement, and sustain EPIC programs, EPIC’s 1999
Principals Accord is outdated, no longer reflects EPIC’s current
membership or the scope of EPIC’s operations and missions, and does
not provide a decision making process where issues can be decided.
Although a majority of member agencies at EPIC collaborate effectively,
several EPIC officials informed us of instances where a member agency
did not share information or contribute resources, leaving EPIC without
an agreed upon method for resolving the dispute.

       The Principals Accord calls for regular meetings of the Principals
Group, but does not establish a schedule for how frequently the meetings
should be held. We requested information regarding previous Principals
Group meetings, but we did not receive any documentation from EPIC.
EPIC’s senior management told us that these meetings had not been held
in “at least several years.” We were also informed that EPIC’s Director
communicates with members of the Principals Group informally rather
than through a formal process that ensures adequate collaboration.

U.S. Department of Justice                                              20
Office of the Inspector General
Evaluation and Inspections Division
      In March 2009, EPIC’s Deputy Director acknowledged that EPIC
lacked an interagency guide and that the Principals Accord needed to be
updated. EPIC reported that 3 years ago it started the process of
formulating a replacement document that would establish a steering
group to provide oversight of EPIC. According to EPIC, in April 2010 the
Interdiction Committee agreed to “facilitate discussions at the
Department level” that would establish the steering group.23

      As a result of the lack of an effective multi-agency agreement, EPIC
has been unable to sustain several key programs or to resolve differences
that arose in the course of operating as a multi-agency center.

Recommendation

We recommend that EPIC:

   2. Update its Principals Accord or adopt a comparable multi-agency
      framework that formalizes each member’s roles and responsibilities
      for implementing and sustaining EPIC’s programs and that
      provides a process for resolving differences that may arise.

EPIC’s process for capturing drug seizure information has not produced
a comprehensive database nationwide.

       EPIC responded to the directive in the 2000 General Counterdrug
Intelligence Plan (the Plan) to establish a process to aggregate federal,
state, and local drug seizure information into one system to enable
analyses of drug trafficking activity by creating the National Seizure
System database. However, the process that EPIC established for
agencies to report seizure data has not produced the comprehensive
database envisioned in the Plan. Unlike the ONDCP’s annual National
Drug Control Strategy, which guides U.S. efforts and national priorities
for reducing illegal drug use and disrupting the illegal drug market, the
Plan provides direction and assigns tasks to U.S. counterdrug law
enforcement and intelligence entities, including EPIC. The Plan called
for:

       the Counterdrug Intelligence Executive Secretariat, in
       cooperation with EPIC and its various points-of-contact,
       HIDTA intelligence centers, the DEA, and Regional

        23 The Interdiction Committee is a multi-agency body of federal agencies

involved in drug interdiction efforts. It is chartered by the ONDCP to discuss and
resolve issues related to the coordination, oversight, and integration of international,
border, and domestic interdiction efforts.


U.S. Department of Justice                                                                 21
Office of the Inspector General
Evaluation and Inspections Division
       Information Sharing System, to coordinate the development
       of a process to capture drug seizure data at the state and
       local level.

       The National Seizure System EPIC maintains is not a complete
record of drug seizures made by U.S. law enforcement, and as a result,
intelligence products based on analysis of the seizure data contained in
this system may be incomplete or inaccurate.

EPIC’s National Seizure System is not a complete record of drug seizures
made by U.S. law enforcement.

        Although many federal law enforcement agencies may make or be
involved in making drug seizures, only five are required to report
information to EPIC’s National Seizure System: the DEA, FBI, CBP,
Immigration and Customs Enforcement (ICE), and the Coast Guard.24
Further, these five are required to report only seizures above threshold
levels established by the DEA, even though the National Seizure System
accepts seizures of any drug quantity.25 Based upon information provided
by EPIC, we found that only the five required federal agencies and an
additional four (ATF, Bureau of Land Management, National Park Service,
and Postal Inspection Service) had supplied data to the system in FY 2008.

       The number of drug seizures made by federal agencies that are not
required to report is not known. To determine whether these agencies
are making drug seizures that are not being reported, we conducted
telephone interviews with representatives from three federal agencies
that had not reported seizures directly in the National Seizure System
during FY 2008 and that seemed likely to conduct drug seizures. The
three agencies we contacted were the Bureau of Indian Affairs, the Fish
and Wildlife Service, and the Food and Drug Administration. We asked
officials from these agencies whether their agencies seized drugs, how
they reported the seizures, and into what system. The official from the

       24 Using the July 2006 Bureau of Justice Statistics Bulletin, Federal Law
Enforcement Officers, 2004, we identified a number of federal agencies that could
reasonably be expected to have seized drugs in the conduct of their law enforcement
operations but that, according to EPIC, reported no seizures directly to the National
Seizure System in FY 2008. A copy of this reference may be found at
bjs.ojp.usdoj.gov/content/pub/pdf/fleo04.pdf.

       25 In 2001, the DEA established quantities of drugs seized that are required to

be reported. These quantities are listed on the 2001 Drug Threshold Weights and
Equivalents. Examples of substances and threshold amounts over which seizures must
be reported are cocaine, 500 grams; hashish, 1 kilogram; heroin, 100 grams;
marijuana, 25 kilograms or 50 plants; and methamphetamine, 250 grams.


U.S. Department of Justice                                                              22
Office of the Inspector General
Evaluation and Inspections Division
Bureau of Indian Affairs stated that his agency seizes drugs “daily –
somewhere, we are always seizing drugs.” In contrast, an official from
the Fish and Wildlife Service stated that his agency rarely seizes drugs.
The official from the Food and Drug Administration said that agency
occasionally seizes illegal drugs in the course of other investigations.

       The representatives of the three agencies told us that when they
seize drugs, they submit them to another federal agency such as the DEA
or CBP, either directly or through a task force, and do not know whether
those agencies report the seizures into the National Seizure System. One
believed incorrectly that the National Seizure System did not accept
seizures below the thresholds.

       Based on this anecdotal information, we believe that drug seizures
are being made by federal agencies not required to report them. While it
is likely that many federal seizures above the thresholds are reported
indirectly to the National Seizure System through other agencies or task
forces, the lack of a requirement to report makes it difficult to determine
whether this information is reported or to ensure that it is reported.

      In addition, there is no requirement for state and local agencies to
report their drug seizure information to EPIC’s National Seizure System
database. EPIC accepts seizure information in a wide range of formats,
such as facsimiles that EPIC personnel enter into the National Seizure
System and electronic transfers of data submitted through the Portal.
However, we could verify only that 209 (1 percent) of the approximately
17,876 state and local agencies and task forces nationwide had reported
information directly to the system during FY 2008.26

       An EPIC manager noted that there is little incentive for state and
local agencies to report seizures. The manager said that “it is difficult to
enlist the locals to cooperate because it requires them to put limited
resources to this effort at a time when resources are short, and it’s not
clear to them what they will get back from their effort.” He also noted
that local police sometimes view themselves as intelligence consumers,
rather than intelligence collectors and reporters.

     A problem within EPIC also may have caused the National Seizure
System to be incomplete. When we compared selected data reported to

       26  This does not mean that all seizures by these agencies were not reported to
the National Seizure System. Seizures may be consolidated and reported through
federal agencies such as the DEA, or through individual state or local agencies, or
through task forces such as HIDTAs whose officers were involved in the operations.



U.S. Department of Justice                                                           23
Office of the Inspector General
Evaluation and Inspections Division
the National Seizure System with data in another DEA drug seizure
database, we found evidence that National Seizure System data was
incomplete. For the comparison, we used the Federal-wide Drug Seizure
System, which automatically receives data from the National Seizure
System about seizures above established thresholds. Because the
National Seizure System contains data on all seizures reported to EPIC
regardless of size, the aggregate quantities in the National Seizure
System should be greater than or equal to those in the Federal-wide
Drug Seizure System. However, we found several instances in which
reported seized quantities of the drug MDMA were higher in the Federal-
wide Drug Seizure System than the amounts reported in the National
Seizure System.27 For example, the National Seizure System reported
20,000 fewer dosage units of MDMA seized in Michigan than were
reported in the Federal-wide Drug Seizure System for the same time
period. EPIC personnel could not explain why National Seizure System
seizures amounts were less than Federal-wide Drug Seizure System
totals.28

      As of March 2010, the ONDCP was planning to begin a “census” by
the end of 2010 of the data in drug seizure databases maintained by law
enforcement agencies to track their drug evidence. These databases are
presumed to be fairly complete because they are used to track evidence
that may, for example, form the basis of criminal cases. The census
would compare the seizure information in the individual databases with
the information in the National Seizure System and would enable the
ONDCP to assess how incomplete the national system is and to what
extent analyses conducted based on information in the National Seizure
System may be flawed.


       27  MDMA stands for methylene dioxymethamphetamine, a drug commonly
referred to as ecstasy. In 2003, the totals of MDMA recorded in the Federal-wide Drug
Seizure System for Michigan were 83,586 dosage units compared with 63,430 in the
National Seizure System. In 2004, the totals of MDMA recorded in the Federal-wide
Drug Seizure System for Michigan were 70,309 compared with 35,672 recorded in the
National Seizure System. Additionally, the Federal-wide Drug Seizure System quantity
of MDMA seized in Washington, Vermont, and Montana for 2003 to 2006 was 335,513
dosage units greater than the quantity reported in the National Seizure System for the
same states over the same time period.

        28 After our review was complete, EPIC managers stated that this type of

discrepancy may be less likely to occur after the DEA and EPIC complete the retirement
of the Federal-wide Drug Seizure System. They noted that a full-time data analyst will
be hired to review the quality of data before, during, and after the process of migrating
Federal-wide Drug Seizure System information to the National Seizure System.
Although EPIC reported that this process is under way, a draft plan for the migration is
not expected until August 2010.


U.S. Department of Justice                                                            24
Office of the Inspector General
Evaluation and Inspections Division
      When we asked an ONDCP research analyst about the
ramifications of the National Seizure System being incomplete or
inaccurate, he stated that for the United States to not have a complete
record of its drug seizures in one system is “an opportunity lost.” For
example, the CBP uses state and local seizure information from the
National Seizure System to track and quantify the amount of drugs
successfully smuggled into the United States and thus to identify and
then address vulnerabilities at the border. Such analyses would be more
accurate if the National Seizure System provided a complete picture of
drug trafficking in the United States and of law enforcement’s efforts to
address trafficking.

EPIC’s management of the National Seizure System does not facilitate
collection of the data needed to fully support tactical analyses.

       The National Seizure System database is structured to collect
approximately 140 separate pieces of information, in 7 broad categories,
for each drug seizure event reported. All seven of the categories include
both mandatory data fields and optional data fields, such as the state of
vehicle origination, drug concealment area, vehicle model, and
commercial carrier name. Having too many required fields may make
reporting so onerous that fewer agencies will report. However, ensuring
that key fields are populated with data is essential for comprehensive
analysis based on that information. An ONDCP research analyst told us
that information from many of the optional data fields would be useful
for identifying trends and predicting patterns of drug trafficking, but
because the fields are frequently left blank, the analyses based on them
are limited.

      To illustrate the impact of these gaps in reporting, EPIC presented
information in one intelligence report based on reported drug seizures
that occurred in July and August 2009. In 11 of 36 (31 percent) reported
seizures, the “drug concealment area” field was not populated, and in
6 of 32 (19 percent) seizure reports, the “vehicle model” field was left
blank. Complete information is important for forming the national
picture of drug trafficking trends and patterns, as well as to effectively
support tactical intelligence needs.

      A National Drug Intelligence Center research analyst who develops
the center’s Inter-Agency Assessment of Cocaine Movement report told us
that his analysis relies on the “location of origination” field, which is an
optional field in the National Seizure System. The report is intended to
show the geographic patterns drug traffickers use to move cocaine within
the United States. If the origination field is blank, the data cannot be
used to determine patterns of trafficking. The analyst stated that

U.S. Department of Justice                                               25
Office of the Inspector General
Evaluation and Inspections Division
missing data in this field “directly affects the report’s accuracy and
utility.”

EPIC is enhancing the completeness and utility of drug seizure data in the
National Seizure System.

       EPIC managers told us that they are working with the CBP to
import CBP, ICE, and other Department of Homeland Security agencies’
seizure information now stored in the Treasury Enforcement
Communication System II (TECS II) database into the National Seizure
System.29 EPIC plans to import seizure information from FY 2005
through FY 2009 and to link the systems so that future seizures
recorded in TECS II are regularly transferred to the National Seizure
System. In February 2010, EPIC managers told us that they had a
commitment from the CBP to do this, but that the matter was “under
legal review” at the CBP and no date had been specified for the
completion of the effort.

      Traditionally, agencies report their seizure information to the
National Seizure System by calling the EPIC Watch and providing the
information associated with their seizure event over the telephone. We
found that several state and local entities have begun to transmit their
seizure information through the EPIC Portal. As of August 2009, the
Arizona and Florida HIDTA intelligence centers each began transmitting
about 100 interdiction seizures a month to the National Seizure System,
and the California Department of Justice and agencies in Tennessee and
Arkansas began transmitting clandestine laboratory seizure information
to EPIC’s system. EPIC also expected to begin receiving data from the
Texas Department of Public Safety through the Portal.

       We believe the EPIC Portal has the potential to streamline
reporting to, and improve the completeness of, the National Seizure
System. However, as previously mentioned, only 4,638 (24 percent) of
EPIC’s 19,416 users had active Portal accounts as of July 2009, and in
FY 2008 only 2 percent of the requests EPIC received for information
were submitted through the Portal. In addition, many interviewees and
survey respondents reported that they needed more information and
training before they could rely on the Portal.




       29 TECS II is the Department of Homeland Security’s automated indexing

system of case files and investigative case information that is used to record seizure
data.


U.S. Department of Justice                                                               26
Office of the Inspector General
Evaluation and Inspections Division
Recommendation

       We recommend that EPIC:

   3. Promote more complete reporting of drug seizure data to the
      National Seizure System through the EPIC Portal and traditional
      methods.

EPIC is not yet operating as the “hub” for the HIDTA program.

       We found that EPIC is not yet the “hub for the HIDTAs,” which was
defined as one of EPIC’s five functions in its 1999 Principals Accord and
contained in the 2000 General Counterdrug Intelligence Plan. The Plan
stated that EPIC should serve as a hub by “centrally receiving and
sharing drug-movement-related information developed by the HIDTA
Intelligence Centers” as well as by “ensuring that EPIC’s Watch and
relevant database checks are a standard part of appropriate HIDTA
operational protocols.” We found that, although as of August 2009 all
HIDTAs had staff approved to use EPIC, EPIC was not yet receiving and
incorporating all HIDTA drug seizure data into its seizure system and
that EPIC Checks were not a standard part of operational protocols for
all HIDTA intelligence centers. In addition, we found that EPIC lacks the
authority to direct the actions needed to make itself a hub.
Consequently, the 32 regional HIDTAs still lack the national perspective
EPIC was intended to provide by connecting their individual databases
and providing them access to federal databases.

       We found during our interviews that HIDTA managers and
analysts did not view EPIC as a hub. For example, one manager in the
Southwest region HIDTA we visited stated that “EPIC has the potential to
make a good hub because of the network of centers and agencies that
draw information from it, but EPIC is not there yet.” In addition, a
manager from a different HIDTA stated that he did not view EPIC as a
hub for the HIDTAs, although he thought that EPIC was a hub for the
Domestic Highway Enforcement Program.30 EPIC’s Director told us that
he is “fighting an uphill battle” to become the hub for the HIDTAs and
that EPIC needs the ONDCP’s support in publishing a “policy
endorsement” establishing EPIC in that role. While the HIDTAs are
largely autonomous, the ONDCP controls their budgets and can direct
their activities to ensure they support national drug control strategy.


        30 The Domestic Highway Enforcement Program coordinates information and

resources for enforcement and interdiction operations conducted by federal, state, and
local law enforcement agencies along key drug transportation corridors.


U.S. Department of Justice                                                          27
Office of the Inspector General
Evaluation and Inspections Division
      We observed that the HIDTA intelligence centers do not
consistently request information from the EPIC Watch as a standard
operational protocol as directed by the Plan. In our survey, 54 of the
respondents reported being assigned to a HIDTA, and only 13 of the 54
reported that they used EPIC because they were required to. This
suggests that the existence of a protocol was not a major reason for
HIDTA analysts to use EPIC.

       Only one of the three HIDTA intelligence centers we visited
incorporated EPIC Checks into its standard protocol by including it as an
option on its information request form. An analyst in this HIDTA
intelligence center informed us that she submitted EPIC Checks every
day and viewed EPIC as a unique “one-stop shop for getting the most
information on targets.” Other analysts in the same center reported
having a “good overall relationship with EPIC.” Analysts at another
HIDTA intelligence center we visited said they submitted approximately
7 to 10 requests for information to EPIC each week. In contrast, at a
third HIDTA intelligence center we visited, in the Southwest region,
analysts reported having a very limited relationship with EPIC. They said
they did not routinely contact EPIC to gather information and did so only
when the subject or the nature of the information they sought reached
outside their HIDTA region.

       We asked EPIC’s Director about the status of EPIC’s effort to
establish itself as the hub connecting the HIDTAs in August 2009. At
that time he stated that “the first spoke” would be established soon,
when the Southwest Border-Arizona Regional HIDTA intelligence center
electronically sent EPIC 5,000 records of Domestic Highway Enforcement
Program traffic stops for EPIC to host so that the information would be
more accessible to other HIDTAs and law enforcement agencies
participating in the program. In April 2010, EPIC managers reported
that the data transfer of Arizona Domestic Highway Enforcement
Program traffic stops information did not begin until November 2009 and
was completed in January 2010. According to a manager at the ONDCP,
connecting information collected by the HIDTAs through EPIC is
important because HIDTA data is not aggregated in a way that can
provide a national perspective, and as a result HIDTAs generally “only
see what’s in their own backyard.”

Recommendation

       We recommend that the Office of the Deputy Attorney General:

   4. Work with the ONDCP to establish policy or guidance requiring
      HIDTAs to implement data and information sharing provisions to

U.S. Department of Justice                                            28
Office of the Inspector General
Evaluation and Inspections Division
       establish EPIC as their hub for seizure and drug movement
       information.

EPIC’s coordination with federal and state intelligence organizations
is inconsistent.

       EPIC does not coordinate with other intelligence centers in a
consistent and structured manner. We found that of 107 intelligence
and fusion centers we identified, 23 did not have staff that had been
approved to use EPIC services.31 EPIC’s Director stated that due to the
large number of law enforcement agencies within the United States, he
believed it is more efficient for officers and analysts to use regional
intelligence centers if they had access to one and then for analysts in the
regional centers to submit requests to EPIC. However, we believe for this
model to work, EPIC must be aware of which regional centers are central
to intelligence dissemination to state and local law enforcement agencies
and to have points of contact at these centers. EPIC must also ensure
that those points of contact are aware of EPIC’s products and services
and how to access them.

       EPIC’s Director also acknowledged that the “proliferation of
intelligence and fusion centers makes it difficult for EPIC to maintain up-
to-date points of contact in every center.” Further, EPIC cannot ensure
that it has users in all centers because EPIC tracks its users by their
parent agency rather than by the affiliation they may have to an
intelligence center. To illustrate this issue, we reviewed EPIC’s user list
to identify which intelligence centers were represented. We then
provided EPIC with a list of the intelligence centers that appeared to lack
an EPIC user and asked EPIC to confirm the information. The Organized
Crime Drug Enforcement Task Force (OCDETF) Fusion Center was
among the centers we did not find associated with any user on EPIC’s
list. EPIC told us it could not confirm that the OCDETF Fusion Center
had an EPIC user. However, we found the names of two analysts from
this center on EPIC’s user list under their agency affiliations – the DEA
and FBI.

       Further, some members of the FBI’s Joint Terrorism Task Forces
whose work is directly related to EPIC’s specialized research units were
not aware of EPIC’s services. For example, EPIC’s Crime-Terror Nexus
Unit develops intelligence products related to terrorism activities, but of
the five FBI Special Agents assigned to three different Joint Terrorism

       31 Our list of 107 intelligence centers consists of state fusion centers approved

by the Department of Homeland Security, HIDTA intelligence centers, and the
Organized Crime Drug Enforcement Task Force (OCDETF) Fusion Center.


U.S. Department of Justice                                                             29
Office of the Inspector General
Evaluation and Inspections Division
Task Forces we interviewed, only the two agents in the El Paso area were
aware of and routinely received information from EPIC. The other three
agents told us they were not aware that the Crime-Terror Nexus Unit
existed and did not use EPIC. One of these FBI Special Agents stated
that he had “zero contact with EPIC.”

Recommendation

       We recommend that EPIC:

   5. Establish points of contact at all national, regional, state, and local
      fusion centers to enhance information sharing and use of EPIC’s
      services and products.

EPIC generally complements other drug intelligence centers, but some
overlap exists as the roles of the centers have changed and new centers
have been established.

       The 2000 General Counterdrug Intelligence Plan was published by
a White House task force in February 2000 to clarify and improve
U.S. drug intelligence and information programs. The Plan assigned
specific roles to EPIC, the National Drug Intelligence Center, and the
Financial Crimes Enforcement Network to improve their effectiveness as
national centers.

      In this review, we compared EPIC’s mission, key products and
services, customer base, and geographic focus with the other national
counterdrug intelligence centers identified in the Plan. We concluded
that EPIC is generally complementary to these other centers, but we
noted overlap in an individual program area.

       EPIC and the National Drug Intelligence Center both receive
information from other centers, law enforcement agencies, and
databases, and use the information to support law enforcement
organizations with drug interdiction responsibilities. However, EPIC
alone disseminates tactical information for immediate use in the field,
such as through EPIC Checks. In contrast, the National Drug
Intelligence Center serves a strategic role by analyzing data to develop
national and regional Drug Threat Assessments that the ONDCP can use
in developing the national drug control strategy and that HIDTAs can
use in developing their own drug threat assessments.

      In comparing EPIC to the Department of the Treasury’s Financial
Crimes Enforcement Network, we also noted overlap in the case support
provided by EPIC’s Asset Identification Unit. The 2000 Plan assigned the

U.S. Department of Justice                                                30
Office of the Inspector General
Evaluation and Inspections Division
Financial Crimes Enforcement Network as the principal center for
investigative support to law enforcement on cases involving narcotics-
related financial crimes.32 However, both EPIC and the Financial Crimes
Enforcement Network provide investigative support by researching law
enforcement, commercial, and financial databases to identify assets
owned by or connected to targets of investigations and their associates.

      Since publication of the 2000 Plan, the OCDETF Fusion Center
has emerged as a key drug intelligence center. While EPIC has been
unable to establish itself as a hub for the exchange of drug seizure
information with the HIDTAs as specified in the Plan, managers at the
National Drug Intelligence Center and in the OCDETF Program Office
told us that some HIDTAs are now looking to exchange investigative
information with the OCDETF Fusion Center, potentially establishing
that Center as a parallel information hub for the HIDTAs. These parallel
processes are occurring separately from each other and without
coordination among the HIDTAs, ONDCP, EPIC, and the OCDETF Fusion
Center.

       To avoid duplication and overlap, we believe that as new
intelligence centers emerge and existing centers like EPIC expand into
other program areas, it is essential that an updated General Counterdrug
Intelligence Plan or other policy document guide the roles and missions
of the various entities.

The use of EPIC by Department components has declined since 2005,
although the use of EPIC by state and local law enforcement agencies
has increased.

       The Department’s use of EPIC has declined since FY 2005,
dropping significantly between FY 2007 and FY 2008. In contrast, state
and local law enforcement agencies’ use of EPIC has steadily increased
each year since FY 2005 and significantly spiked upward from FY 2007
to FY 2008 (see Table 2). Use by federal agencies outside the
Department of Justice declined gradually from FY 2005 to FY 2008, but
increased slightly from FY 2008 to FY 2009. These non-Department
federal users of EPIC are primarily from the Department of Defense and
specific components of the Department of Homeland Security.




       32 After our review was complete, EPIC renamed the Asset Identification Unit
the Financial Targeting Unit.


U.S. Department of Justice                                                            31
Office of the Inspector General
Evaluation and Inspections Division
              Table 2: Requests for Information by Agency, 

                          FY 2005 – FY 2009 

                                                                       %
                                                                     Change
                          FY     FY       FY       FY       FY      FY 2005-
                         2005   2006     2007     2008     2009       2009
 Department of Justice agencies
 ATF                        575    566      604      772      697    21%
 DEA                    38,692  37,177   34,520   20,101   19,368    -50%
 FBI                      2,331  2,182    2,451    1,184      787    -66%
 USMS                       296    364      286      342      329    11%
 EPIC                     1,294    590    1,907    1,556    2,475    91%
 Department of Homeland Security (DHS) agencies
 CBP                      2,889  1,699    1,523      881    2,150    -26%
 ICE                      2,993  2,408    2,652    1,738    2,322    -22%
 Coast Guard              1,642  1,567    1,387    3,082    3,438    109%
 Other DHS agencies         606    486      356      280      211    -65%
 Other federal
 agencies                 5,825  5,072    3,573    2,978    2,782    -52%
 Total federal          57,143  52,111   49,259   32,914   34,559    -40%
 State, local, and
 HIDTA                  24,343  25,441   32,842   52,211   54,040    122%
 Other                      291    294      638    1,080    1,333    358%
 TOTAL                  81,777 77,846 82,739      86,205   89,932    10%
Source: EPIC.

       The decrease in EPIC use by the Department is a result of
significant drops in use by the DEA (a 50-percent reduction from
FY 2005 to FY 2009) and the FBI (a 66-percent reduction from FY 2005
to FY 2009). Use by ATF increased 21 percent between FY 2005 and
FY 2009, and use by the United States Marshals Service (USMS)
increased 11 percent in the same period. However, these two
components generate only a small percentage of the requests for
information from EPIC.

       When we asked EPIC managers why Department users’ requests
for information had declined, they attributed the decline to four possible
contributing factors. First, in 2006, EPIC began requiring federal users
to go through EPIC’s approval process before they could receive EPIC
information – a requirement that had previously applied only to state and
local users. EPIC managers told us that many federal users complained
about this requirement and that it may have caused some not to use
EPIC or to circumvent EPIC’s Watch by contacting EPIC analysts
informally. The latter method allows users to obtain the information
without requests being registered in EPIC’s database. Similarly, as of
U.S. Department of Justice                                                  32
Office of the Inspector General
Evaluation and Inspections Division
mid-2007, users can submit data requests that do not require immediate
response to a central point within EPIC. Depending on the nature of the
requests, the central point assigns them to the relevant office to be
addressed. The 171 requests received through the central point in
FY 2008 and the 560 received in FY 2009 are not counted in EPIC’s
database.

       Second, EPIC managers stated that since 2006, EPIC has
increased the information it has provided informally through other
programs, which has met information needs of some of these federal
users in the field. Third, the increase in task forces combining state and
federal personnel may be providing federal users a way to get EPIC
information through state users rather than by calling the EPIC Watch
directly. Fourth, EPIC personnel informed us that users may be
obtaining information they want through the EPIC Portal rather than by
submitting requests for EPIC Checks. The Portal allows users to search
the four databases that EPIC owns and to obtain a variety of reports, but
it does not provide access to seven additional databases that are
included in an EPIC Check.

       We asked the FBI why its use of EPIC had decreased because it
has historically used EPIC more than any agency other than the DEA.
FBI officials stated that the FBI submitted fewer requests for information
between FY 2005 and FY 2009 because of the establishment of the
OCDETF Fusion Center and other fusion centers and analytic entities
that “enhance the flow of operational intelligence within the criminal and
national security programs.” FBI officials stated that the FBI’s requests
to these entities increased as its requests to EPIC decreased.

      EPIC managers also stated that the corresponding increase in use
of EPIC by state and local law enforcement reflects EPIC’s greater
emphasis on recruiting new users during the interdiction courses it
conducts for state and local law enforcement officers.

      However, we are concerned about the decline in use of EPIC by
Department components, especially at a time when the Department has
increased its focus and allocated substantial resources to combating
smuggling and its associated violence on the Southwest border. For
example, according to congressional testimony, at the end of FY 2008,
the DEA had 1,203 authorized Special Agent positions in domestic offices
with responsibilities for the Southwest border. This represents




U.S. Department of Justice                                              33
Office of the Inspector General
Evaluation and Inspections Division
approximately 23 percent of the DEA’s total Special Agent workforce.33
The Department’s January 2010 Strategy for Combating the Mexican
Cartels states as an objective increasing intelligence and information
sharing among law enforcement agencies in the United States and
Mexico. In light of the increase in Southwest border violence, use of
EPIC by Department components should be increasing, particularly by
key components such as the DEA and FBI. Law enforcement agencies
must have the ability to access, link, and interpret voluminous
intelligence information from as wide a community as possible.

       EPIC’s Director told us that he is concerned about the indication
that federal use of EPIC has decreased and that EPIC is “on the training
road” and is conducting outreach and marketing to federal users.

EPIC does not sufficiently analyze some of its information for
patterns and trends that could aid interdiction efforts.

      EPIC collects, maintains, and stores information extracted from
multiple databases and other sources, but may be overlooking trends,
patterns, and connections within the data because it conducts only
limited analysis of datasets that are unique to EPIC. The 2000 General
Counterdrug Intelligence Plan states that “EPIC will provide regional
analysis to identify drug trafficking trends and patterns associated with
those regions, and will issue timely reports as appropriate.”

       When we asked law enforcement personnel and analysts we
interviewed how EPIC could improve its support to them, several stated
that EPIC could better meet their needs if it conducted more analysis of
the information it collects. For example, two DEA employees in different
field offices stated that EPIC could improve its support to them by
providing more analysis that would support cases. Similarly, when
asked in what ways EPIC could improve support, one FBI analyst stated
that her agency could use more trend analysis in its case support.
Further, an intelligence agency representative told us that EPIC is not
analyzing important information that could be used to identify trends
and patterns in drug trafficking along the border. Another intelligence
agency representative suggested providing EPIC analysts with software to
identify links in information so that they did not miss connections
between related information and could provide a faster, more advanced
product to EPIC’s users. Also, in explaining why the FBI’s use of EPIC

      33 The Special Agent in Charge of the El Paso Division, DEA, before the

Subcommittee on Commerce, Justice, Science, and Related Agencies of the Committee
on Appropriations, U.S. House of Representatives, concerning “Violence Along the
Southwest Border,” March 24, 2009.


U.S. Department of Justice                                                     34
Office of the Inspector General
Evaluation and Inspections Division
has decreased while its use of other fusion centers has increased, FBI
officials stated that “requests for information into the OCDETF are most
valuable as the mission of the OCDETF Fusion Center is to collect and
analyze all-source information and through incisive analysis, produce
intelligence products in support of multi-agency, multi-jurisdiction
investigations.”

       While certain analyses fall within EPIC’s mission of providing
tactical intelligence, EPIC may not be the best facility for analyzing all of
the data that it collects. In some cases, getting the most from EPIC’s
data may be accomplished by EPIC’s sharing the information with other
centers rather than undertaking the analysis directly. We believe it is
important for EPIC to determine whether other centers may be better
prepared to analyze information and, if so, to forward the information to
them.

EPIC does not analyze National Seizure System data to identify drug
trafficking patterns and trends.

       EPIC’s reports generate aggregate data entered into the National
Seizure System but do not synthesize or provide any analysis of the data.
EPIC’s National Seizure System can produce 14 standard reports, such
as the Top 10 Seizures per Contraband, Seizures by Agency, and the
U.S. Seizure Details report that produces information about drug
seizures such as type of drug, times, locations, and methods. Similarly,
the EPIC Portal enables users to display the locations of seizure events
recorded in the National Seizure System geographically so that possible
relationships among seizures can be seen. However, it does not provide
any analysis of the data.

       During summer 2009, EPIC formed a Predictive Analysis Unit to
assist state and local law enforcement agencies with their interdiction
activities along suspected trafficking routes.34 The unit provides reports
called Intelligence Notes that are based on National Seizure System
information. The notes are intended to provide “predictive intelligence” to
help agencies connect highway traffic stops to major drug trafficking
activities and organizations. Being able to make that connection would
allow trafficker patterns and routes to be identified and would help
agencies plan coordinated interdiction operations. However, the notes
are simply a report of law enforcement drug seizures from the National


       34 After our review was completed, EPIC renamed the Predictive Analysis Unit

the Predictive Analysis and Targeting Unit and stated that the unit will provide much of
the Research and Analysis Section’s trend-based reporting.


U.S. Department of Justice                                                           35
Office of the Inspector General
Evaluation and Inspections Division
Seizure System, with only limited analysis that could be used to predict
trends and patterns in trafficking activity.

      EPIC plans to expand the capabilities of the Predictive Analysis
Unit. EPIC’s Deputy Director stated that he envisions this unit
conducting “post seizure analysis” to identify the point at which drugs
entered the United States and to determine the reasons for the failure to
interdict the drugs at the border.

Recommendation

       We recommend that EPIC:

   6. Issue more substantive analytical products based on the seizure
      data collected in the National Seizure System.

EPIC does not identify trends and patterns in the use of documents
suspected of being fraudulent or fraudulently obtained.

       EPIC cannot electronically search its catalog of 1 million archived
fraudulent documents and does not analyze this repository of current
documents to identify trends and patterns in fraudulent document use.
For officers who must quickly evaluate a document’s authenticity during
a traffic stop or at a U.S. port of entry, it is important to be able to
reference an updated database of seized documents that can be searched
and compared to documents seized from the field. In addition, because
fraudulent documents are often used repeatedly, identifying trends and
patterns in how, when, and by whom they are used could be a valuable
source of information for law enforcement. EPIC is unable to
electronically search the documents in its repository because they are
stored on microfilm, which is not a searchable format. Further, at the
time of our review EPIC could not search these documents manually,
because the unit’s microfilm reader was not working.

      EPIC has developed a plan to transfer the 1 million documents on
microfilm to a digital format that will map every data field in each
document to a corresponding field in a database through which the
documents can be searched, retrieved, and analyzed. EPIC management
told us that as of February 2010, the equipment needed to complete this
project had been ordered and that the documents would be scanned into
the new format by September 2010. This would allow EPIC to compare
documents already in its repository to those it receives in the future.
EPIC’s plan also includes the hiring of data entry personnel to speed
processing time and increase the accuracy of data entry for the archive.


U.S. Department of Justice                                              36
Office of the Inspector General
Evaluation and Inspections Division
      Until the documents are available for analysis, front line law
enforcement officers will not receive immediate assistance in determining
whether a suspicious document is fraudulent based on EPIC’s document
repository. EPIC is also not able to conduct analysis of newly seized
documents. We note that after EPIC has completed this database, it will
have the potential to provide law enforcement personnel valuable tactical
information and analysis when specifically requested. But according to
an OCDETF program manager, the data also could serve a wider purpose
of supporting investigations and being used in analysis if EPIC shared
the data with intelligence centers, such as the OCDETF Fusion Center,
that have a greater focus on analysis. If EPIC’s fraudulent documents
database was incorporated into the OCDETF Fusion Center’s data
system, connections between use of fraudulent documents and OCDETF
cases could be identified.

Recommendation

       We recommend that EPIC:

   7. Assess the feasibility of analyzing digitally scanned fraudulent
      documents to identify trends in both sources and patterns of
      fraudulent document use, and of providing the data to other
      intelligence centers for their use.

EPIC is not fully analyzing tactical information it collects to identify drug
trafficking patterns and trends.

       We found that EPIC operates a program that collects certain
tactical information on the activities of drug traffickers and reports this
information to law enforcement and intelligence agencies, but does not
fully analyze the information to identify trends and patterns.35
Currently, the information EPIC collects is used almost exclusively for its
immediate intelligence value and to warn law enforcement of immediate
threats they may encounter in their investigations and operations.

       In March 2009, the DEA assigned a Reports Writer at EPIC to
review the summaries of this information as it is collected, to author
Intelligence Information Reports, and to send the reports to the
Intelligence Division at DEA Headquarters. The Intelligence Division

         35 Tactical intelligence is information on which immediate enforcement action

can be based. In the case of this EPIC program, it is perishable and time sensitive in
that it requires immediate action as soon as it is collected. The specific tactical
information that is referred to in this section is law enforcement sensitive, and we do
not identify it here.


U.S. Department of Justice                                                            37
Office of the Inspector General
Evaluation and Inspections Division
then disseminates the information to members of the intelligence
community and may incorporate it into DEA reports, such as the Drug
Intelligence Bulletins. Initially, the Reports Writer generated
approximately 10 reports a month, but from January 1 through
March 31, 2010, the Reports Writer generated approximately 61 reports
a month.

       So far, this initiative has generated reports of drug trafficker
activities that are disseminated to the intelligence community, rather
than analyses of the information collected by the program to identify
trends and patterns in drug trafficking and drug trafficker activity. A
Department of Defense official from Joint Task Force-North told us that
analyzing the information collected through this program to identify
trends and patterns could aid interdiction efforts. Similarly, an agency
representative assigned to EPIC suggested that adding a trained
“collection manager” to analyze and track patterns could strengthen this
program.

       EPIC officials told us that EPIC plans over the next 2 to 3 years to
significantly expand the program that collects this tactical information.
As the program expands and more information is collected, there will be
a greater opportunity to identify links, trends, and patterns in this
information. By not analyzing information EPIC collects to identify
patterns and trends, EPIC is missing opportunities to assist law
enforcement agencies conducting interdiction operations along the
Southwest border and to better analyze trends and patterns in drug
trafficking activity.

Recommendation

       We recommend that the DEA:

   8. Assess the feasibility of enhancing the capability at EPIC to analyze
      tactical information to identify links, trends, and patterns in drug
      trafficking activity in support of interdiction operations and
      investigations.

EPIC does not regularly update Gatekeeper reports.

       EPIC managers and other interviewees told us they were concerned
that the information in EPIC’s Gatekeeper reports was not up to date.
EPIC intends for the Gatekeeper reports to be thorough descriptions of
the current hierarchies, methods, and activities of the drug, weapon, and
alien traffickers (referred to as gatekeepers) controlling the trafficking
corridors between Mexico and the United States. The more current the

U.S. Department of Justice                                                38
Office of the Inspector General
Evaluation and Inspections Division
information is, the better it can support active investigations. However,
the information in the reports becomes outdated quickly because
traffickers are incarcerated, killed, or develop new smuggling methods.

      During our interviews with EPIC users, we found that users valued
Gatekeeper reports as historical references but considered them to be out
of date and did not use them in their day-to-day operations. Our survey
results indicated that Gatekeeper reports were not used extensively –
68 percent of respondents reported “no opinion” when asked about
Gatekeeper reports.

      EPIC published its last complete Gatekeeper report on Southwest
border corridors in April 2007. EPIC’s practice had been to complete an
update on every corridor before publishing them collectively in a single
comprehensive report. At the time of our fieldwork, EPIC was in the
midst of changing its process and planned to publish four smaller
reports with each covering one of four regions of the border. In April
2008, EPIC published the first of these smaller reports, the Arizona
Corridors Report, and in 2009 EPIC was drafting a report covering West
Texas and Southern New Mexico.

      An EPIC manager told us that it took 6 to 9 months to update
information about each individual region. At that rate, we determined
that the information about each region would be updated only every 2 to
3 years, and the material in the reports would likely quickly be outdated.

       In addition to the full reports, EPIC also disseminates daily
updates of Gatekeeper information through: (1) briefings at EPIC and
(2) electronic messages to investigators working on Mexican drug
trafficker cases, as well as certain DEA, FBI, and Department of
Homeland Security managers. However, the information from these daily
updates is not reflected in the Gatekeeper report until EPIC produces the
next version, which may not occur for years.

      A possible solution for ensuring that all Gatekeeper information is
current and accessible could be to use widely available technology that
allows for the integration of new information into an existing framework
as other intelligence operations have done. For example, in September
2008, the FBI set up a secure, internal “wiki” using the same freely
editable webpage software used by Wikipedia that allows agents and
analysts to share information and subject matter expertise.36 This wiki

       36 Wikipedia, www.wikipedia.org, was created in 2001 and is a free-content

Internet encyclopedia that allows anyone with Internet access to contribute, edit, and
collaborate on information posted on the site.


U.S. Department of Justice                                                           39
Office of the Inspector General
Evaluation and Inspections Division
also links to the Director of National Intelligence’s secure, internal wiki,
Intellipedia, enabling information sharing between intelligence and law
enforcement personnel.

       We believe that, as an alternative to EPIC internally updating and
publishing the Gatekeeper reports, EPIC staff could use wiki software to
manage the sharing of this important information. By promoting timely
updates from a broad range of selected investigators and analysts, as
well as integrating information from daily updates of Gatekeeper
information, EPIC could provide current information to users. As a first
step, EPIC should consider a secure webpage application, as the FBI and
the Office of the Director of National Intelligence have done, to enable
contemporaneous production of updated Gatekeeper reports.
Establishing secure, up-to-date online Gatekeeper information on drug
traffickers and their activities could improve EPIC’s support of
interdiction operations and investigations.

Recommendation

       We recommend that EPIC:

   9. Examine new approaches for making Gatekeeper information more
      current and accessible.

EPIC is not managing the performance of its programs through
effective performance measurement or collection of user feedback.

      We found that EPIC’s FY 2008 to FY 2013 Strategic Plan does not
include objective measures of the performance of its programs.
Moreover, EPIC does not have documentation for all planned programs.
As a result, EPIC cannot ensure its programs are performing adequately
and meeting defined objectives.

       EPIC’s Strategic Plan includes 65 performance measures, but in
many cases these measures do not reflect current operations or actual
program constraints. In addition, EPIC managers we interviewed did not
use the measures to monitor the performance of their programs or
identify areas for improvement. In none of our initial interviews with
EPIC managers, supervisors, or personnel did they tell us that they had
performance measures for their programs when we asked questions
pertaining to oversight or criteria used to ensure program effectiveness.

     Of the 16 current and 2 developing EPIC programs we identified,
EPIC had performance measures for only 11 of these programs in its
FY 2008 – FY 2013 Strategic Plan. When we requested data to determine

U.S. Department of Justice                                                 40
Office of the Inspector General
Evaluation and Inspections Division
whether EPIC had measured performance for these 11 programs in
FY 2008, EPIC could provide the data to show whether the measure was
achieved for only 7 programs.

      When we asked EPIC program supervisors and personnel about
the Strategic Plan performance measures in follow-up interviews,
supervisors told us that they were unaware of their own programs’
performance measures, or that the wording of the measures did not allow
for an accurate measurement of program performance, or that the
measures themselves were unrealistic given the constraints facing the
programs.

       For one performance measure, we found that EPIC had
accidentally deleted the database used to track the measure, and when
the database was re-created, the fields that tracked the information
necessary to show whether the performance measure was achieved were
not included. In another example, a program performance measure did
not accurately reflect the operation of a unit that monitors signals from
tracking devices that law enforcement personnel have placed on targets
they are investigating. The performance measure for this beacon
tracking program states that EPIC “will disseminate beacon movement
intelligence to case agents within 5 minutes of the beacon movement
notification.” When we reviewed EPIC’s data to determine how
successful the program had been, we found that only 15 percent of
EPIC’s notifications had been made within 5 minutes during FY 2008.
EPIC managers stated that the 5-minute standard applied only to cases
in which a case agent had requested notification, even though the
performance measure was worded as though it covered all cases.
Further, regarding the 15 percent of the notifications made within the
5-minute standard, EPIC managers told us they believed all of those
notifications had actually been immediate. However, EPIC did not
measure when notifications actually occurred, so there was no
documentation to support the managers’ belief.

      Another performance measure stated that the Fraudulent
Document and Tactical Bulletin Unit “will attend the quarterly
Consolidated Counterdrug Database meeting and provide EPIC’s input to
the process.”37 When we inquired about the measure, EPIC management
responded that:



       37 The Consolidated Counterdrug Database captures details of maritime drug

seizures in the maritime regions between South America and the United States
submitted by U.S. and foreign counterdrug agencies. Multi-agency meetings are held
quarterly to review interdiction cases and vet information to be added to the database.


U.S. Department of Justice                                                            41
Office of the Inspector General
Evaluation and Inspections Division
       attendance at the Consolidated Counterdrug Database
       meetings was a historical function performed by a cell of the
       EPIC Transportation Unit, which was disbanded in
       approximately January 2007. This function did not apply to
       the Fraudulent Document and Tactical Bulletin Unit as it is
       not related to their current mission and functions.

       In addition, a program that had only recently been reconstituted
after being out of operation for over a year still had two performance
measures in the current Strategic Plan for the year the program was not
in operation.

       We also found that EPIC does not systematically seek customer
feedback on its products and services. EPIC’s Strategic Plan states that
one of EPIC’s “key external challenges” is to develop a “measurement tool
for customer satisfaction.” EPIC has not accomplished this. We asked
EPIC managers how they measure customer satisfaction and found that
neither EPIC nor individual sections within EPIC had a system to gauge
whether EPIC’s products and services are meeting customer demands.
Instead, EPIC relies on receiving sporadic unsolicited feedback, or the
fact that more agencies are participating in EPIC, to show that EPIC is
meeting needs.

       Further, as EPIC has established new programs, it has not done so
consistently with a defined purpose, scope, and objectives. For example,
although EPIC was in the early stages of implementing the License Plate
Reader Program, it did not have documentation for it.38 When we sought
documentation we were referred to a program manager at DEA
headquarters who summarized the program’s plans in an e-mail. In
addition, we learned through interviews that EPIC will expand its tactical
intelligence collection program to cover more of the Southwest border,
but EPIC did not have a written plan for how this would be accomplished
or, as discussed previously, how the additional intelligence collected
would be analyzed.

        EPIC has grown rapidly in recent years and, as noted in the
Background section of this report, will continue to grow by adding
agency participants, new programs, and staff, and by expanding the size
of its facility. These expansions are associated with significant financial


       38 The DEA’s License Plate Reader Program places optical character recognition

devices along key areas of the Southwest border to help locate vehicles suspected of
transporting bulk cash, drugs, weapons, and other illegal contraband. The DEA plans
to base this program at EPIC and to staff it with 19 contractor analysts to monitor data
generated by the readers.


U.S. Department of Justice                                                            42
Office of the Inspector General
Evaluation and Inspections Division
resources.39 It is important that EPIC ensure its growing programs
expend resources prudently, efficiently, and with a focus on EPIC’s
priority missions. This requires that EPIC establish meaningful
performance metrics for its programs and that it evaluate and measure
its overall effectiveness on the basis of its performance and the needs of
its users.

Recommendations

       We recommend that EPIC:

   10. Develop performance metrics for all of its programs and
       operations that define relevant and objective standards, and use
       the metrics to evaluate program effectiveness.

   11. Expand its existing mechanisms to systematically collect 

       feedback on its products and services from users. 





       39The President’s FY 2011 budget for the Department includes $54 million to
expand the EPIC facility by about 20,000 square feet.


U.S. Department of Justice                                                       43
Office of the Inspector General
Evaluation and Inspections Division
                CONCLUSIONS AND RECOMMENDATIONS 



       EPIC was established as the DEA’s Southwest border intelligence
center and has emerged as a valuable resource, not only for the DEA, but
for other federal agencies and state and local law enforcement agencies
seeking intelligence information to support their Southwest border
operations.

       We found that EPIC is highly valued by its partner agencies and
users, and that users find its products and services timely, accurate,
relevant, actionable, and valuable. However, we identified several
significant weaknesses that have prevented EPIC’s operations and
programs from being as effective as they could be.

      EPIC lacks a formal program to inform users and potential users
about products and services that could assist them. Further, we found
that EPIC has not sustained effective operation of some key programs
and has not ensured that it coordinates effectively with member
agencies. As a result, EPIC’s service to users has been disrupted or
diminished for periods of time in several areas.

       EPIC’s 1999 Principals Accord does not reflect EPIC’s current
membership or missions and is not used effectively to resolve issues that
arise in EPIC’s multi-agency setting, such as ensuring that priorities are
agreed upon so that programs are sustained and member agencies meet
expectations for participation and information sharing. We believe that
with an updated agreement that defines relationships, protocols for
communication and the exchange of information, and that identifies a
collaborative governance structure and process to address coordination
issues, EPIC could be a more effective and efficient center for the
exchange of information and intelligence, and could improve its ability to
analyze data from the multiple sources that it accesses.

       We also found that EPIC has not accomplished two of the five
functions in its Principals Accord that were contained in the 2000
General Counterdrug Intelligence Plan. First, EPIC’s process for
aggregating drug seizure information has not produced a comprehensive
database of drug seizures nationwide because of incomplete reporting
into the National Seizure System. As a result, intelligence products
based on the data may be incomplete or inaccurate. Second, EPIC has
not become, as envisioned, the hub for the HIDTA program.

      Further, EPIC’s coordination with federal and state intelligence
organizations across the country is inconsistent. For EPIC to more

U.S. Department of Justice                                               44
Office of the Inspector General
Evaluation and Inspections Division
efficiently disseminate information, it should have contacts in key
intelligence centers, and ensure that those contacts are aware of EPIC’s
products and services and how to access them.

      We also found that as the number of participating agencies at EPIC
increased overall, federal agencies submitted fewer requests to EPIC for
information, as measured by EPIC Checks, between FY 2005 and
FY 2009. By contrast, the total number of requests for information
submitted to EPIC by state and local law enforcement has steadily
increased.

      In addition, although EPIC’s mission is to conduct analyses and to
disseminate information, EPIC does not analyze some information that it
uniquely collects. As a result, EPIC may not be adequately identifying
trends and patterns in drug trafficking activity that could be used to
increase the effectiveness and safety of drug interdiction operations. In
instances where EPIC is not the appropriate center for analyzing the
information it collects, EPIC should ensure that it shares the information
with the appropriate intelligence centers.

       Additionally, EPIC is not managing the performance of its
programs through objective performance measures and by systematically
collecting user feedback. We believe that EPIC should develop
performance metrics for the entirety of EPIC’s programs and operations
that define relevant and measureable standards. EPIC also should
develop a mechanism to systematically collect feedback from users on its
products and services.

    To improve EPIC’s utility to the law enforcement and intelligence
community we recommend that:

  1.	 EPIC expand its outreach and education program to promote the
      use of its products and services, including information about how
      to use the EPIC Portal.

  2.	 EPIC update its Principals Accord or adopt a comparable multi-
      agency framework that formalizes each member’s roles and
      responsibilities for implementing and sustaining EPIC’s programs
      and that provides a process for resolving differences that may
      arise.

  3.	 EPIC promote more complete reporting of drug seizure data to the
      National Seizure System through the EPIC Portal and traditional
      methods.


U.S. Department of Justice                                              45
Office of the Inspector General
Evaluation and Inspections Division
  4.	 The Office of the Deputy Attorney General work with the ONDCP to
      establish policy or guidance requiring HIDTAs to implement data
      and information sharing provisions to establish EPIC as their hub
      for seizure and drug movement information.

  5.	 EPIC establish points of contact at all national, regional, state, and
      local fusion centers to enhance information sharing and use of
      EPIC’s services and products.

  6.	 EPIC issue more substantive analytical products based on the
      seizure data collected in the National Seizure System.

  7.	 EPIC Assess the feasibility of analyzing digitally scanned
      fraudulent documents to identify trends in both sources and
      patterns of fraudulent document use, and of providing the data to
      other intelligence centers for their use.

  8.	 The DEA assess the feasibility of enhancing the capability at EPIC
      to analyze tactical information to identify links, trends, and
      patterns in drug trafficking activity in support of interdiction
      operations and investigations.

  9.	 EPIC examine new approaches for making Gatekeeper information
      more current and accessible.

  10. EPIC develop performance metrics for all of its programs and
      operations that define relevant and objective standards, and use
      the metrics to evaluate program effectiveness.

  11. EPIC expand its existing mechanisms to systematically collect
      feedback on its products and services from users.




U.S. Department of Justice                                               46
Office of the Inspector General
Evaluation and Inspections Division
          APPENDIX I: METHODOLOGY OF THE OIG REVIEW 




       We conducted in-person and telephone interviews of personnel at
EPIC and in the Washington, D.C., area, conducted site visits to
interview EPIC’s customers and federal partners, administered a survey
to EPIC users, and performed data analysis and document reviews.

Interviews

      Washington, D.C., area interviews. We conducted interviews with
personnel at Headquarters components of the Department of Justice
including the Drug Enforcement Administration; Federal Bureau of
Investigation’s Joint Terrorism Task Force; Organized Crime Drug
Enforcement Task Force Program; Justice Management Division; and the
National Drug Intelligence Center. We interviewed officials from the
Department of Homeland Security, including Customs and Border
Protection and the Office of Counternarcotics Enforcement. We also
conducted interviews with personnel at headquarters components of the
National Security Agency, Central Intelligence Agency, and the Office of
National Drug Control Policy.

      El Paso Intelligence Center. During the course of fieldwork, we
conducted interviews at EPIC with the Director, Deputy Director, Section
Chiefs, Unit Chiefs, and personnel from the General Watch, Tactical
Operations, and Research and Analysis sections. We also interviewed
representatives from EPIC partner agencies embedded at EPIC and
personnel performing database and collections management support
functions.

       Site visits. We conducted site visits to El Paso, Texas; San Diego,
California; and Miami-Key West, Florida. During site visits, we interviewed
personnel from the Federal Bureau of Investigation and FBI Joint Terrorism
Task Forces; the Bureau of Alcohol, Tobacco, Firearms and Explosives;
Customs and Border Protection; Drug Enforcement Administration; and
Immigration and Customs Enforcement. We also interviewed state and
local law enforcement officers with the Las Cruces Police Department; the
San Diego Police Department and Sheriff’s Office; the Florida Department of
Law Enforcement; and the Florida Highway Patrol.

      Intelligence centers. We conducted interviews with personnel at the
National Drug Intelligence Center; Organized Crime Drug Enforcement
Task Force Fusion Center; Customs and Border Protection’s Air and
Marine Operations Center; Joint Interagency Task Force-South; Joint

U.S. Department of Justice                                            47
Office of the Inspector General
Evaluation and Inspections Division
Task Force-North; and High Intensity Drug Trafficking Area regions in
California, Florida, Texas, and Maryland.

Data Analysis

      We analyzed EPIC’s requests for information over time to identify
patterns in agencies’ use of EPIC, and also analyzed EPIC’s list of users
to determine the distribution by type of agency and EPIC account.
Further, we examined a list of reported seizures for FY 2009 to identify
the agencies whose data was entered into National Seizure System. In
addition, we analyzed EPIC’s budget information to see whether the
share of EPIC’s budget funded by the DEA had changed over time.

EPIC Customer Survey

       We surveyed a random sample of EPIC’s users to assess their
perceptions of EPIC products and their value. We classified each of
EPIC’s 19,416 users into one of three agency categories: Department of
Justice (29 percent), other federal (17 percent), and state or local
(54 percent) using their e-mail addresses and agency names. We
eliminated 696 because we could not determine the user’s agency, the
user worked at EPIC, the user was from a foreign government, or the
user had access only to the EPIC Portal. From the 18,720 users
remaining, we randomly selected a total of 2,442 users proportionally
from the three agency categories. Within each agency category we drew
half the users from those who had access to the EPIC Watch only and
half from those who had access to the EPIC Portal and Watch. We did
this to increase our likelihood of getting adequate responses from recent
EPIC users because to maintain Portal access users must have logged on
within the last 3 months. To capture responses from EPIC users
embedded in intelligence centers, we selected an additional 57 users of
EPIC who were assigned to intelligence centers.

Document Review

       We examined the 2000 General Counterdrug Intelligence Plan, the
National Southwest Border Counter Narcotics Strategy, the 2009
National Drug Threat Assessment, and the 2009 National Drug Control
Strategy. We reviewed EPIC’s FY 2008–FY 2013 Strategic Plan, EPIC
Charters, and the 1999 Principals Accord. In addition, to understand
how EPIC supports law enforcement customers and partners within the
intelligence community, we analyzed EPIC’s products by each EPIC
section. These included examples of intelligence products, training
materials, internal procedures, performance measure requirements, and
agreements with EPIC partners.

U.S. Department of Justice                                              48
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX II: NATIONAL AND REGIONAL INTELLIGENCE CENTERS 

           WITH COUNTERDRUG RESPONSIBILITIES 



Department of Justice Centers

1. The Organized Crime Drug Enforcement Task Force Fusion Center
   collects and analyzes all-source drug and drug-related financial
   investigative information to support coordinated multi-jurisdictional
   investigations that are focused on disrupting and dismantling the
   most significant drug trafficking and money laundering organizations.

2. The DEA’s Special Operations Division produces comprehensive
   analyses of data revealing the activities and organizational structures
   of major drug-trafficking and drug-related money laundering
   organizations. Through court-approved Title III electronic
   interceptions, it assists multi-jurisdictional investigations by targeting
   the command and control of these illicit organizations.

3. The National Drug Intelligence Center “provides strategic drug-related
   intelligence, document and computer exploitation support, and
   training assistance to the drug control, public health, law
   enforcement, and intelligence communities” to reduce and deter drug
   trafficking and drug-related crime.

Non-Department of Justice Centers

1. The Central Intelligence Agency’s Crime and Narcotics Center
   supports and conducts operations to counter illicit drug activities,
   transnational crime, and war crimes by providing targeting
   assessments of key individuals and criminal organizations to law
   enforcement in the field. The center also provides U.S. policy makers
   with analyses of long-term trends of the drug trafficking and
   organized crime affecting U.S. national security.

2. Customs and Border Protection’s Air and Marine Operations Center
   “deters, sorts, tracks, and facilitates the interdiction of criminal
   entities throughout the Western Hemisphere, by utilizing integrated
   air and marine forces, technology, and tactical intelligence.”

3. Joint Interagency Task Force-South conducts “interagency operations
   against illicit trafficking through the detection and monitoring of illicit
   air and maritime targets and facilitate interdictions and information
   sharing in support of the national and regional security.”


U.S. Department of Justice                                                 49
Office of the Inspector General
Evaluation and Inspections Division
4. Joint Task Force-North is a joint service command within the
   Department of Defense that supports federal law enforcement
   agencies with the identification and interdiction of suspected
   transnational threats within and along the approaches to the
   continental United States.

5. Border Patrol and CBP Border Intelligence Centers perform
   intelligence functions to support their field offices and law
   enforcement personnel.

6. Financial Crimes Enforcement Network detects and deters criminal
   activity and safeguards financial systems from abuse by promoting
   transparency in the United States and international financial systems.
   It supports law enforcement, intelligence, and regulatory agencies by
   sharing and analyzing financial intelligence.

7. High Intensity Drug Trafficking Areas maintain intelligence centers
   that provide tactical, operational, and strategic intelligence support to
   the HIDTA executive board. They also develop regional threat
   assessments and target de-confliction.

8. State fusion centers exist in many states and large cities to share
   information and intelligence within their jurisdictions as well as with
   the federal government. As of July 2009, the Department of
   Homeland Security had identified and designated over 70 fusion
   centers.




U.S. Department of Justice                                                50
Office of the Inspector General
Evaluation and Inspections Division
       APPENDIX III: DATABASES QUERIED IN AN EPIC CHECK 



EPIC-Owned Databases

EPIC 10 Database (EPIC 10) – Tracks requests for inquires sent to EPIC
and records points of contact information and summary results.

EPIC Law Enforcement Information Search and Analysis (ELISA) – Tracks
requests for inquires sent to EPIC through the EPIC Systems Portal and
records points of contact information and summary results.

EPIC Internal Database (EID) – EPIC’s legacy repository for seizure
information relating to drug trafficking from the 1970s through 1999,
and other current bulk seizures information. It also contains current
EPIC Lookout information.

National Seizure System (NSS) – Current repository for seizure
information from 2000 to the present regarding drugs, weapons, and
currency seized above federal threshold limits.

Drug Precursor Database (DPD) – Contains pseudoephedrine sales
violators from the state of Tennessee.


External Databases

DEA’s Narcotics and Dangerous Drug Information System (NADDIS) –
Automated indexing system of DEA case files and investigative case
information.

Department of Homeland Security’s Treasury Enforcement
Communication Systems II (TECS II) – Automated indexing system of
case files and investigative case information.

FBI’s National Crime Information Center System (NCIC) – Index of
criminal justice information concerning crimes and criminals of
nationwide interest. Includes information concerning wanted persons,
missing persons, stolen property, and criminal histories. Only the Wants
and Warrants File is checked during the EPIC Check.

CBP’s Central Index System (CIS) – Contains identifying information on
individuals of interest because they have violated immigration laws or are
immigrating to the United States.




U.S. Department of Justice                                              51
Office of the Inspector General
Evaluation and Inspections Division
FAA’s Aircraft Registration System (ARS) – Contains current information
on all aircraft registrations, aircraft owners, and pilot licenses in the
United States.

Federal Bureau of Prisons’ SENTRY System (SENTRY) – Contains
information on all federal prisoners incarcerated since 1980.

USMS’s Warrant Information Network (WIN) – Contains fugitive and
warrant information and records of information collected during
U.S. Marshals Service investigations.

DEA’s License Plate Reader Database – Stores vehicle license plate
information captured from specific locations along the Southwest border.

DEA’s Analysis and Resource Tracking System (DARTS) – Contains
information on phone numbers, push-to-talks, Internet addresses,
vehicle information, and business information.




U.S. Department of Justice                                             52
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX IV: RESULTS OF OIG SURVEY OF EPIC CUSTOMERS 



      We conducted a web- and e-mail-based survey of a random sample
of EPIC users to assess their perceptions of EPIC’s products and services
and their value to users. Survey recipients were notified that the OIG
intended to assess their usage of EPIC’s products and services, opinions
about the value of EPIC’s products and services, reasons for going or not
going to EPIC for certain information, and ideas for how EPIC could
enhance its support to the law enforcement and intelligence
communities. We sent invitations to participate to 2,499 members of the
chosen sample. Seven hundred sixty-eight users responded to the
survey, although three surveys were excluded from analysis because
respondents were assigned to EPIC.

       Note: Some percentages do not add to 100 because of rounding.

                            Respondent Information

1. What type of government organization do you work for? 	(Select
   one.)

                                                Number     Percentage
   U.S. Department of Justice (DOJ)                 239            31%
   Federal government other than DOJ                150            20%
   State                                            209            27%
   Local (City or County)                           165            22%
   Tribal law enforcement                              2          0.3%
   Total                                            765          100%
   N=765

2. Are you assigned to an Intelligence or Fusion Center?

                                                Number     Percentage
   Yes (please choose the one that fits best)       181           24%
   No                                               584           76%
   Total                                            765          100%
   N=765 





U.S. Department of Justice                                               53
Office of the Inspector General
Evaluation and Inspections Division
   If you answered Yes, please choose the center that fits best:

                                                            Number of
                                                            Responses       Percentage
   Parent agency’s intelligence resource, such as a                 18             10%
   Field Intelligence Group
   HIDTA Intelligence Support Center or Law                            54         31%
   Enforcement Support Center
   State Fusion Center                                                 48         27%
   Border Intelligence Center                                           3          2%
   National Drug Intelligence Center                                    2          1%
   Organized Crime Drug Enforcement Task Force                          1          1%
   Fusion Center
   DEA Special Operations Division                                      2          1%
   Other (specify)                                                     49         28%
   Total                                                              177        100%
   N=177

   Only 177 of 181 Respondents who provided a response for Question 2 answered this
   question.

3. Which of the following best describes your current duties?

                                                            Number of
                                                            Responses       Percentage
   Conduct investigations                                          309              41
   Conduct interdiction activities                                 123              16
   Provide ongoing analysis to support investigations              177              23
   Provide tactical information upon request                        28               4
   Other (specify duty)                                            125              16
   Total                                                          762            100%
   N=762

   125 Respondents chose “Other” in Question 3 and provided answers in their own
   words. The OIG categorized information within their answers as follows:

                                                        Responses
                   Support                                       54
                   Administrative                                32
                   Interdiction                                  23
                   Investigations                                 7
                   Cannot tell from answer                        7
                   Other                                          2
                   Total                                       125




U.S. Department of Justice                                                          54
Office of the Inspector General
Evaluation and Inspections Division
4. What type of law enforcement operation(s) are you currently most
   involved with? (Select one.)

                                                        Number of
                                                        Responses     Percentage
   Traffic or highway enforcement                              130             17
   Drug trafficking                                            413             54
   Human trafficking                                            18               2
   Gun trafficking                                              14               2
   Money laundering                                             35               5
   Gang activity                                                22               3
   Terrorism                                                    24               3
   Other (specify)                                             106             14
   Total                                                       762          100%
   N=762

   106 respondents chose “Other” in Question 4 and provided answers in their own
   words. The OIG categorized information within their answers as follows:

                                                                      Responses
   General investigations/all or more than one choice                         42
   Other investigations/work                                                  28
   Duties do not support specific investigations                                8
   Cannot tell from answer                                                      8
   Interdiction and/or traffic enforcement                                      6
   Drug                                                                         6
   Fugitive                                                                     5
   Immigration                                                                  3
   Total                                                                     106

                      EPIC Utilization and Perceptions

5. From what source did you first learn about EPIC? (Select one.)

                                                        Number of
                                                        Responses     Percentage
   EPIC training                                               124           16%
   EPIC e-mail notification                                       8           1%
   Conference or briefing presentation by EPIC                  74           10%
   personnel
   Conference or briefing presentation by non-EPIC              50             7%
   personnel
   New law enforcement position training                       123            16%
   New intelligence analyst position training                   73            10%
   Co-worker or peer                                           175            23%
   Other (specify)                                              74            10%
   Don’t recall                                                 64             8%
   Total                                                       765           100%
   N=765 




U.S. Department of Justice                                                         55
Office of the Inspector General
Evaluation and Inspections Division
6. Have you ever used EPIC? (If No skip to Question 8.)

                                      Number of Responses              Percentage
   Yes                                                  679                      89%
   No (Skip to Question 8)                                86                     11%
   Total                                                765                     100%
   N=765

7. How often do you use EPIC?

                                                         Number of       Percentage
                                                         Responses
   Very often (Skip to Question 10)                             133                 20%
   Sometimes (Skip to Question 10)                              358                 52%
   Rarely (Skip to Question 10)                                 170                 25%
   It’s been longer than 3 years since I have used                22                 3%
   EPIC (Please specify why)
   Total                                                          683           100%
   N=683



8. Please select the reason(s) that you have not been using EPIC,
   from the following list. (Check all that apply.)

                                                                          Number of
                                                                          Responses
   I am required to use other intelligence resources                               30
   EPIC does not have the information I need or use                                14
   I feel more confident in the accuracy of the information provided               21
   by my parent organization’s internal intelligence center or
   division
   EPIC can’t provide information quickly enough to be useful to me                  19
   EPIC information is difficult to access or obtain                                 44
   EPIC does not provide enough analysis with the information                         8
   Other (Specify)                                                                  103
   N=765 


   Respondents could select more than one response. 





U.S. Department of Justice                                                           56
Office of the Inspector General
Evaluation and Inspections Division
   Respondents who chose “Other” in Question 8 provided answers in their own words.
   The OIG categorized information within their answers as follows:

                                                                  Responses
   Don’t or haven’t yet needed EPIC information                            22
   Unfamiliar with EPIC products                                           20
   Not applicable to job                                                   16
   No access/access issues                                                  8
   Do use EPIC                                                              8
   No specific reason                                                       6
   Other source used                                                        5
   EPIC information is not good or useful                                   4
   Use EPIC indirectly                                                      3
   EPIC’s dissemination does not meet needs                                 2
   Other                                                                    1

9. Which of the following sources of law enforcement information or
   intelligence do you use instead of EPIC? (Check all that apply.)

                                                                  Number of
                                                                  Responses
   Parent agency’s intelligence resource such as a Field                    53
   Intelligence Group
   HIDTA Intelligence Support Center or Law Enforcement                      60
   Support Center
   State Fusion Center                                                       48
   Border Intelligence Center                                                19
   National Drug Intelligence Center                                          7
   Organized Crime Drug Enforcement Task Force Fusion Center                 10
   DEA Special Operations Division                                           28
   Other (specify)                                                           53
   No source used                                                            47
   N=765

   Respondents could select more than one response.

     If you have never used EPIC or have not used EPIC within the
    last 3 years, Questions 10 through 21 do not apply. Please skip
                             to Question 22.

               If you have used EPIC within the last 3 years –
                       please proceed to Question 10.




U.S. Department of Justice                                                        57
Office of the Inspector General
Evaluation and Inspections Division
10. What are the main reasons you use EPIC as a resource?
   (Check all that apply.)

                                                            Number of
                                                            Responses
       I am required to use EPIC by my agency                      175
       Convenience                                                 137
       Can get multiple database checks at the same time           402
       (one-stop shop)
       Confidence in the accuracy of EPIC’s info                     74
       EPIC is the only source of the information                    70
       Other (specify)                                               45
       N=765 


       Respondents could select more than one response. 


       Respondents who chose “Other” in Question 10 provided answers in their own 

       words. The OIG categorized information within their answers as follows:


                                                            Responses
       Data                                                         14
       Can’t tell from answer                                       10
       Requested by office                                           9
       Other                                                         7
       NSS & seizure info                                            6
       Best/trusted source of info                                   4
       Air Watch                                                     2
       Confidential source establishment                             2
       Border Activity                                               2
       Verification                                                  2
       Deconfliction                                                 1
       Bulletins                                                     1
       EPIC is fast                                                  1




U.S. Department of Justice                                                       58
Office of the Inspector General
Evaluation and Inspections Division
11.	   In your opinion, which of the following law enforcement
       operations do you believe benefit the most by using EPIC’s
       products and services? (Check all that apply.)

                                                            Number of
                                                            Responses
        National law enforcement                                   369
        Regional law enforcement                                   276
        Southwest border                                           314
        Traffic or highway enforcement                             331
        Drug trafficking                                           500
        Human trafficking                                          177
        Gun trafficking                                            167
        Money laundering                                           228
        Gang                                                       127
        Terrorism                                                  164
        Don’t know                                                  46
        Other (specify)                                              4
       N=765 


       Respondents could select more than one response. 





U.S. Department of Justice                                               59
Office of the Inspector General
Evaluation and Inspections Division
                     Value of EPIC’s Products and Services

12.	   Of the following list of EPIC products and services that you
       have used, how would you rate their value to your
       operation(s)? (If you have not used the product or service
       please check “No opinion.”)

       (We asked respondents to report how valuable 10 specific EPIC
       products and services had been to their operations. The table
       below summarizes these results)

                                      Percent         Percent
                                                                     Percent
                                      Reporting       Reporting
                                                                     Reporting
                                      Great or Some   Little or No
                                                                     No Opinion
Value of Product or Service           Value           Value
Calling the Watch                          82%                4%         15%
Tactical Bulletins                        68%                6%          27%
Lookouts                                  66%                4%          30%
E-mailing the Watch                       60%                6%          34%
EPIC Portal                               53%                7%          40%
Asset Identification                      42%                7%          52%
Aircraft or Pilot Information             36%                6%          58%
Tracking Beacons                          29%                6%          66%
Maritime Information                      27%                8%          66%
Gatekeeper Report                      26%                   7%          68%
  Note: Rows may not add to 100 percent due to rounding.

   Source: OIG survey.




U.S. Department of Justice                                                     60
Office of the Inspector General
Evaluation and Inspections Division
13.	   If you selected “No value” or “Little value” for any of the
       above products and services, please explain why.

   Respondents provided answers to Question 13 in their own words. The OIG
   categorized information within their answers as follows:

                                                      Number of
                                                      Responses     Percentage
   Not aware of/haven’t used                                 63             42%
   Doesn’t apply to need                                     34             23%
   Portal deficiencies/tactical limitations                  13              9%
   Quality of timeliness of EPIC data                        10              7%
   Unaware of FDIN value                                      9              6%
   Can’t tell meaning of comment                              9              6%
   EPIC unresponsive/difficult to access                      5              3%
   Assorted comments                                          3              2%
   EPIC is duplicative                                        3              2%
   Service is unavailable                                     2              1%
   Total                                                    151           100%
   N=151

14.	   Overall, how would you rate the timeliness, accuracy,
       actionability, and relevance of the EPIC products and services
       you have used?

          Timeliness: Information was received in time for it to be useful
                                                     Number of
                                                     Responses      Percentage
   Does not meet the criteria                                  8             1%
   Barely meets the criteria                                  21             3%
   Somewhat meets the criteria                              106             17%
   Fully meets the criteria                                 477             76%
   No opinion                                                 20             3%
   Total                                                    632            100%
   N=632 


                           Accuracy: Information was correct
                                                       Number of
                                                      Responses     Percentage
   Does not meet the criteria                                  7             1%
   Barely meets the criteria                                   6             1%
   Somewhat meets the criteria                                73            12%
   Fully meets the criteria                                  517            82%
   No opinion                                                 29             5%
   Total                                                     632          100%
   N=632 





U.S. Department of Justice                                                   61
Office of the Inspector General
Evaluation and Inspections Division
            Actionable: Information was immediately usable in my work
                                                    Number of
                                                    Responses     Percentage
   Does not meet the criteria                               12             2%
   Barely meets the criteria                                10             2%
   Somewhat meets the criteria                             106            17%
   Fully meets the criteria                                464            74%
   No opinion                                               36             6%
   Total                                                   628          100%
   N=628 


                 Relevance: Information was applicable to my work
                                                     Number of
                                                     Responses    Percentage
   Does not meet the criteria                                 5            1%
   Barely meets the criteria                                  3            1%
   Somewhat meets the criteria                               97           15%
   Fully meets the criteria                                505            80%
   No opinion                                                21            3%
   Total                                                   631          100%
   N=631

15.	   If you selected “does not meet” or “barely meets” for any of
       the above criteria, please explain why.

   Respondents provided answers to Question 15 in their own words. The OIG
   categorized information within their answers as follows:

                                                       Number of
                                                       Responses     Percentage
   Takes too much time to get                                  17           40%
   Information was inaccurate, incomplete, or out of            8           19%
   date
   Can’t tell what response means                               6             14%
   EPIC employee incompetent or unprofessional                  3              7%
   No value added                                               3              7%
   Never received response                                      2              5%
   No standard format for responses                             2              5%
   Difficult to get info from EPIC                              2              5%
   Total                                                       43            100%
   N=43 





U.S. Department of Justice                                                     62
Office of the Inspector General
Evaluation and Inspections Division
16.    How helpful have EPIC’s products and services been in
       supporting your law enforcement operations?

                                       Number of
                                       Responses      Percentage
   Very helpful                               394               62%
   Somewhat helpful                           218               34%
   Not very helpful                             20               3%
   Not helpful at all                            6               1%
   Total                                      638              100%
   N=638

17.	   Are you aware of the secure internet connection known as the
       EPIC Portal? (If “No” skip to Question 21.)

                                       Number of
                                       Responses      Percentage
   Yes                                        433               68%
   No                                         207               32%
   Total                                      640              100%
   N=640

18.	 Have you ever used the EPIC Portal? (If yes, skip to
   Question 20.)

                                       Number of
                                       Responses      Percentage
   Yes                                        261               59%
   No                                         181               41%
   Total                                      442              100%
   N=442 





U.S. Department of Justice                                         63
Office of the Inspector General
Evaluation and Inspections Division
19.    Please select the reason(s) that you have not used the EPIC
       Portal, from the list below. (Check all that apply.)

                                                                          Number of
                                                                          Responses
       I have never received training on the Portal                                89
       User ID/password expired                                                    28
       I prefer to speak with a person                                             21
       Too difficult to get user ID and password                                   18
       Don’t know                                                                  12
       Information I need is not available through the Portal (specify)             4
       Other (specify)                                                             34
       N=765

       Respondents could select more than one response. Additionally 4 respondents
       specified information they need including: money laundering, no instructions on
       Portal, parameters unavailable, and the Portal offers nothing useful.

       Respondents who chose “Other” in Question 19 provided answers in their own
       words. The OIG categorized information within their answers as follows:

                                                                          Responses
       Other                                                                       10
       Access issues                                                                7
       Don’t have internet access when info needed                                  5
       Not aware of                                                                 3
       Don’t find it useful                                                         3
       Easier to call Watch                                                         3
       Haven’t needed it                                                            2
       Don’t know how                                                               1
       Total                                                                      34

20.    What additional comments do you have about the EPIC Portal?

   Respondents provided answers to Question 20 in their own words. The OIG 

   categorized information within their answers as follows: 


                                                                          Number of
                                                                          Responses
       Not user friendly                                                           24
       Positive comments                                                           14
       Need more info or training                                                  12
       Doesn’t have needed information                                              6
       Slow response                                                                4
       Password/access problems                                                     3
       Other                                                                        3
       Format of responses inconsistent                                             1
       Total                                                                      67




U.S. Department of Justice                                                         64
Office of the Inspector General
Evaluation and Inspections Division
21.	 Which of the following sources of law enforcement information
   or intelligence do you use in addition to EPIC? (Check all that
   apply.)

                                                                        Number of
                                                                        Responses
   Parent agency’s intelligence resource such as a Field Intelligence          257
   Group (FIG)
   HIDTA Intelligence Support Center (ISC) or Law Enforcement                  322
   Support Center
   State Fusion Center                                                         203
   Border Intelligence Center                                                   76
   National Drug Intelligence Center (NDIC)                                    178
   Organized Crime Drug Enforcement Task Force (OCDETF) Fusion                 171
   Center
   DEA Special Operations Division (SOD)                                       296
   Other (specify)                                                              79
   Do not use any other source in addition to EPIC                              50
   Don’t know                                                                   14
   N=683 


   Number of responses equals more than 683 because of multiple responses.


                             Final Comments about EPIC

22.	   Do you feel that EPIC is doing enough to inform the law
       enforcement community about its products and services?

                                                        Number of
                                                        Responses       Percentage
   Yes (Skip to 24)                                             428            56%
   No                                                           192            25%
   Don’t know (Skip to 24)                                      141            19%
   Total                                                        761           100%
   N=761 





U.S. Department of Justice                                                      65
Office of the Inspector General
Evaluation and Inspections Division
23.	   In your opinion, what is the best way for EPIC to inform the
       law enforcement community about its products and services?
       (Select one.)

                                                      Number of
                                                      Responses      Percentage
   EPIC representatives making presentations about             98           50%
   its products and services to agencies
   EPIC producing printed information about EPIC’s              28            14%
   products and services
   EPIC posting information about its products and              52            26%
   services on law enforcement websites and portals
   Other (specify)                                             13              7%
   Don’t know                                                   6              3%
   Total                                                      197            100%
   N=197

24.	   Do you have any additional comments or suggestions about
       EPIC that were not covered by the previous questions?

   Respondents provided answers to Question 24 in their own words. The OIG
   categorized information within their answers as follows:

                                                      Number of
                                                      Responses      Percentage
   Positive comments                                           46            15%
   Need more EPIC information/training                         36            12%
   Specific suggestion                                         28             9%
   Bad customer service                                         6             2%
   EPIC not necessary or useful                                 3             1%
   Access/password issues                                       3             1%
   Other                                                        2             1%
   EPIC has improved                                            1           0.3%
   Total                                                     125           100%
   N=300 





U.S. Department of Justice                                                     66
Office of the Inspector General
Evaluation and Inspections Division
                          APPENDIX V: ACRONYMS 



ATF           Bureau of Alcohol, Tobacco, Firearms and Explosives

CBP           Customs and Border Protection (DHS)

DEA           Drug Enforcement Administration

DHS           Department of Homeland Security

EPIC          El Paso Intelligence Center

FAA           Federal Aviation Administration (Department of
              Transportation)

FBI           Federal Bureau of Investigation

FDIN          Federal Drug Interdiction Number

FinCEN        Financial Crimes Enforcement Network (Department of the
              Treasury)

FY            Fiscal year

HIDTA         High Intensity Drug Trafficking Area

ICE           Immigration and Customs Enforcement (DHS)

MDMA          Methylene dioxymethamphetamine (Ecstasy)

NADDIS        Narcotics and Dangerous Drugs Information System

NDIC          National Drug Intelligence Center

NSS           National Seizure System

OCDETF        Organized Crime Drug Enforcement Task Force

OIG           Office of the Inspector General

ONDCP         Office of National Drug Control Policy

TECS II       Treasury Enforcement Communications System II

USAO          United States Attorney’s Office

USMS          United States Marshals Service

U.S. Department of Justice                                          67
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX VI: THE OFFICE OF THE DEPUTY ATTORNEY GENERAL 

               RESPONSE TO DRAFT REPORT 


                                                           u.s.               of

                                                           Office of the           At1nrr,ev General




                                                            May 26. 2010


    Michael D. Gulledge
    Assistant Inspector General for Eva! uation and Inspr;ction
    Office oftllc Inspector General
    U.S, Department of Justice
    \Vasbingtoti, D.C. 20530

     Dear Mr. Gulledge:

            The Office of the Deputy Altorney General (ODAG) very much appreciates the
    opportunity to review and respond to the Office of the Inspector General's draft audit report
    entitled, "A Review of the El Paso [utdllgcm.:e Center" (hereinafter. "Report").

             The now ofhl1man trafficking and narcotics noMh into the United Stutes, along with
     smuggling of illegal firearms ami criminal moncraJY proceeds south out of the Cnited States, has
     had a devastating ciTed on the C nitcd States and Mexico, particularly along the Southwest
     Bordc!"' Among the DepartmenCs most lmportal1t priorities is to increase U.S. pressure on drug
     trafFicking organizations by targeting illegal ~lrms trafficking, the flow of narcotics into the
     United States. the movement of bulk currency. alld gang affiliations ""lth >.1exican drug cartels.
     Key to our operational success is the collection and sharing of jnteHigencc. which enables U.s.
     law enl0n:enlcnt to be guided by current and robust intelligence resources, as it works diligently
     on both sides of the border to stem the How of illicit drugs and assist the Government of Mexico
     in breaking the power and impunity of the drug cartels,

             The E! Paso Intelligence Center (EPIC) is a national tactical intelligence ceniCr that
     f{)cuses its efforts on supporting law enforcement effOlts in the Western Hemisphere, with a
     significant empha'),is on the Southwe::;t Border, Through its 24-hour Watch function, EPIC
     provides immediate access to participating agencies' databases LO lawen lorcement agents,
     investigators, and analysts. This function is criticaJ in the dissemination or relevant information
     in supporL of tactical and investiga.tive activities, dcconfliction~ and officer sarety. EP[C also
     provides significant, direct tactical intelligence support to state and local law enforcement
     agencies, espeCIally in the areas of clandestine Iflboratory investigations and highway
     interdiction"

             1'h(; Report documents the important role lhat EPIC serves in providing the tadical
     intelligence necessary to fight criminal organizations engaged in wide rangc of <:riminal activity.
     particularly along the Southwest Hordcr, :'\nd~ while the review found that EP[C is highly
     valued by its partner agencies and users. the Report also recommends certain steps to make EPIC
     an even more effective and valuable law enforcement reSOUf<:e,




U.S. Department of Justice                                                                                 68
Office of the Inspector General
Evaluation and Inspections Division
                                                     2

         For instance, the RepOlt           one recommendation Jbeused on improv;ng the
  information sharing relationship be:wc",!! EPIC and the High Intensity Drug Trnfi1cking Area
  (HIDTA) Program. The Report                    thaI neither EPIC nor DEA exercise the cOl1trol
  necessary to standardize the cxchange or drug-movcment-relatcd inrormation between EPIC and
  the I·!IDTA intelligence celllers. It is the Director of the Olliee of National Drug Conlrol Policy
  who is authorized to designate an area withi!: the United States as a HIDTA. Each BIOTA, in
  tum, is led by an Executive Board comprise'; of n represcntative from each federnl, stale, Wld
  local agency        has a member pcnnancntly             to the HlDTA Task Force in that HIOTA
  ''';;''UIL Currently, Ihere arc 32 HIDrAs thai          federal funding I'll' infrastructure and joint
  inilialives that facilitate cooperation and information sharing among federal.           and local law
  enforcement organizations.

          Thus, the Rcport recommends:

          4, The Office orlhe Deputy Attorney Geneml work with Ihe O!-:DCP to establish
                 or                   IIIDTAs to                datu and int(>rInation s]u,rir,c
          pruvlsiuns tu cslabHsh EPIC a'} their hub Jbr seizure and drug movemt:nt
          information.

        We concur with the recommendation, The Om"e or the Deputy Attorney General will
  work with the ONDCP to establish EPIC as the hub for JUDT A         Support Centers.

          Please feel free to contact me should you have any questiol1,S.




                                                         Senior COllus,,1




U.S. Department of Justice                                                                                 69
Office of the Inspector General
Evaluation and Inspections Division
  APPENDIX VII: OIG ANALYSIS OF THE OFFICE OF THE DEPUTY 

                ATTORNEY GENERAL RESPONSE 



      The Office of the Inspector General provided a draft of this report to
the Office of the Deputy Attorney General for its comment. The ODAG’s
response is included in Appendix VI to this report. The OIG’s analysis of
the ODAG’s response and the actions necessary to close the
recommendation are discussed below.

Recommendation 4. The Office of the Deputy Attorney General
work with the ONDCP to establish policy or guidance requiring
HIDTAs to implement data and information sharing provisions to
establish EPIC as their hub for seizure and drug movement
information.

       Status. Resolved – open.

      Summary of the ODAG Response. The ODAG concurred with the
recommendation and noted that neither EPIC nor the DEA exercise the
control necessary to standardize the exchange of drug-movement-related
information between EPIC and the HIDTA intelligence centers. ODAG
stated that it will work with the ONDCP to establish EPIC as the hub for
the HIDTA Intelligence Support Centers.

      OIG Analysis. The ODAG response is partially responsive to our
recommendation. However, the ODAG did not provide any specifics
about the actions it plans to take to establish EPIC as the hub for the
HIDTA Intelligence Support Centers. Please provide the OIG a
description and a timeline for implementation of the actions planned to
establish EPIC as the seizure and drug movement information hub for
the HIDTA Intelligence Support Centers.

      Please provide the OIG with information about what actions ODAG
plans to take to address the recommendation, or the status of any
actions taken, by August 31, 2010.




U.S. Department of Justice                                               70
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX VIII: THE DRUG ENFORCEMENT ADMINISTRATION 

                 RESPONSE TO DRAFT REPORT 


                                                          U. S . D epa rtm e nt o f Just ice
                                                          Drug Enforoemmt Administration




   www.lko.gt:w                                           W~nli:ton.     D.C. 2051]


                                                            JUN 01 1010

   MEMORANDUM

  TO,             Michael D. Gulledge
                  Assiswn 11llp«lor Gene..l
                   for Evaluali~ and lnspe<:lions
                  Office of ~ Inspecl"," Cknen.1


   FROM:          ~~~~Ye~
                  Office of InSpeCtions

   SUBJECT:       DEA', ReSpOn>C to lh< 010· , Draft Report;         R~.I~    p/II,. EI PiUO   1",.lIig.",,~
                  CI~Ur

     The Urug tinlOr"cemenl AdmmislraUOII (ULA) IIu rev,ewed t he L>epartment oUUOlioc ( LX.IJ),
  Offi« oflbe [nspeooIOrGene...t·. (OIG) d..fI.udil ~rt,emilled : Revl_ Q!IIw EII'MO
  /TIlI/lip,," CeTlltr. A·1009.()1)/. PEA II<:knowledges O[G'I efforts i n cooducting l \borough
  re,.;e...,. o f !he DOJ IlWIaged, mu.lti..agency in.elli2eDCe center which oerves .., • III<:tical i" reUige""<'
  reoource fur federal., owe, local and internalion.oJ 1_ enforcement agencies on • wide range of
  criminal1hre:au. D EA concurs with n:conunendations I . ] and 5· II , and will take the nocaiWY
  stepo 10 implement 1M recommertdalions. rbe urtK:e oflbe Ikpu!y Anomer Uene...t responded
  Sq>ru"llely ro r«<:>lIlJn(fl(IatioIl 4.

      "The E1 Paso Intelligence Center (EPIC or the '""Cenrer") is. narional ra.orical inrellige""" cenler
  \hat was initially e. llhlished to ..,.;01 law enforcement in Iddressi"i Southwell border reuted i$.Sues.
  DurinK ill 36- year history, EPIC' . focus &lid ra<:h bave . ",pllllded beyond Ibe Southwest border lO
  encompo..ss \lie emire Western tfemispl>ere. Ho ...... ver, 1lle Ceo\cr retains iU "'lletical·· orientation ­
  providing time sensitive infOfmatioo thai un be .. ted upon immediately hyend useR. Ths !aerial
  fo<:us diJlingujsbes EPIC from investiatltive support cenrers Or o rganizations thai seek lO infontl
  policy lhroujb. Slralelic ona1ysis. AlthoUih DEA bas been resp()IIsiblc for the managemenr of EPIC
  ';/ICe its i nceplion. EP[C is • lrue multi-agmcy center lhaI remains bea vily deper.:lenl on a variety <>f
  lIlIencies for data, . taffini and participa.tion.

      DEA apprcciale!llhal the draft oudil rep<lrt reflecrN lbe results of an DIG """"y which found
  thor EP IC i. highly valued by ils paMer lIlIeoc ie5 and users.. Spe<ifically, the     ' '''''''y
                                                                                              results!lOted
  thlt EP IC ut«S r<']>Orted hiah utisfaction willi the prodl.lCl$ and ..,.-vice, thor EP[C provides. Those
  \I#I"l abo tq><><1ed the ptOduo:ts ro be timely and valuable to their operations. While DEA remains




U.S. Department of Justice                                                                                      71
Office of the Inspector General
Evaluation and Inspections Division
 Michlel D, Gulleclfe, AIfiIIant blll*1O' Cia>enI

 oommlltail(l "";"11 piOCCll i"..o.o, ..... II EPIC mol '';11lI'0II: 10 implemerM lIIe
                                                                                                            ..."
 ,eeooihi... idltions ooade by lIIe DIG. EPIC k/jeo,'ellhII cwton\tJ lIIiloolon II the key 10 lIIe
 caila"', allltinu«l .........

 DBA providco the followina iCifiOi* I(IlIIe 010'. r..:ommendatiolll:

 Rtrommeodotlo. I. [ PI C Imptt-.ol .. OIIlr _ ~ o.d tdM "OH procno .. 10 promolt Ih • ..,
 of lll produttJ ud ..,....1«1. l.d.dl. ,I.Jor ..olkHI.IHto I II .... 'ow
                                                                      Rr lC hn.L   "t
 OEA coneu ... with lIIe m:ommmda!ion. bot btli~ellhat thi. ~ion oni.,.........,
 -wropria'ely real ""EPIC ~ ns outreacll ond alUCMion pro...,. ... While 0f!A      w

 ocki\OwlalWeilhal EI'IC Ihould improve il', out~lCh pro,"", 1(1 Nile •• ,Old promote EPIC,
 lOefViteo ond products, DEA off"" that the CUOTeIlI maneton,lti"ItelY Iw raultN in siani fieant
 powlh In the number of \lien of EPIC. SifICe ill inceplion. EPIC Iw mlde nlellli'lt effurto to
 man;cI lIIe uti lity of ill producll &lid la"Vica. Evidence of thll II IUpported by IhI: over 25.000
 VUIOd. ulCfl who hive _            to EPIC (Ill ilCrcaK 0(6.000 uaen linee the 010'. ,isit to EPIC),
 Mcno_. EPIC hosts an overage of over 1.000 vi, ilOn annUlOlIy 10 provide infomulliooal briefing&.
 It i. &I.. noICWOflhy IhIllhI: lIlIaI number Ohcllod ""'" i. an W1der·repi'CK"nlllion of the IClu&l
 nwnber of individuals &om Ibe I.w a o f _ axnmunily thai .....ware of ond lISO EPIC
 rat)IlI'I:a ono dailybuU. iii ......ycua, one lUCI" . . tlaflei the infomwion fUjuimnenIJ of..,
 enliRl.......,..,em. oq.o.od or .... it. Addillonally, the EPIC 5111<1 ond J.oeal Pro$rli1ll Unit fII'O"idH an
 overa&" of25 10 30 interdic\ion.orienled InIinin, KaiOlll annUlOlIy•• loeI,iono Ihroui/lOUl the
 eowrtty. Thae!Bini",            ·00.     lOII~ncly l"O"ide ).000 10 $.000 low ... fun: ........ officers annllllly
 " lib dNiled infonnaOan abou' EPIC. EPIC hao conAaauJy JiIOIIlOIN ill c.pabiliti.. 10 the ~
 ert1Oo«ment communily Ind eontinuo""y NlltttJ ill terVic • . The incteUOd 10K of EPIC terVic.
 ond ill ~idly gro~ u_ laMe. clearly IIIppOIU EPIC'. aillio, rnart<ct:i", capabilities. The
 C...,... i. on IrICk 10 "'"""" mont !han 100.000 q _ d";o, flICI.l yur2()lO.

 DBA will n plom new opportImiliea to upmd lIIe nw1tetin, of EPIC and will &110 cIcvdop a
 prolfllll of ""pondi", CUltomer IUqI ofth: EPIC S)'IICmI Portal.

 RH ..",mudalklal. EPIC .pdottlll PrfIoC'lpak A«e-rd or MOpt a companobk _ ltiqfH)'
 framework Ihl f .. rnll'luI ..., rumbtr'. roIu •• d r n po'tliIoili!ia for impltlWl llat, •• d
 l uslalalRg EPIC'I progra .... a.d Iba, p"~ldu a prOflU for rttOl~I.1 dlrr~._ Ihl "'.~
 I n K.


 DCA cone .... with the I'<'COmmtndatlon. Sn:e Sefltcmbcr 11. 2001. the information shari".
 landseape h.. cllanlled and there 1\11 btcn a rapid c~pat\lion of i!l'ellilence centeno IncludiTlj
 apprt>xiro ... ly n lIate rulion conten. whlclt art flUldtd at leul in p&rt by the DHS. AI rteently u
 five yur:o .... 1bcrc wne thmo ()) fNera! ta(:1i(a l lnlel!lllfllCe ctnl.... • EPIC.1he Border Field
 Imd.igonu C.,,"er (OORFIC). ond .Ioim T .. k Foree-North (lTF-N) - within two miles of one
 anotller in EI P..... Tuu and pi .... 10 <OnJ:nH:I. f<l<tM con, .. • the Border Interdiclion SuWOrt
 Ctnt.. (DISC) · in the same o;;ty. II w.. 1101 poIIibJe 10 update EPIC', Princil'&i"1 Aa:ord without
 raaMlIj the oYerlappi"l miuiOlll and functions oflllele cmtera. Fommately.1hroulk' «OIICertod
 mulu-yeu effill"l. DEA ond ill part ...... have ooade ~ in lbil mo. The BORrlC and iIJ
 cttpal:oillliea ha"" boUI utCOtpOutN into l!PIC. JTF.N;. cuOTelltly nqot:iotilli 10 mer. iIJ
 imelli&m<e limetiona into EPIC. PI8na 10 atablish the DISC are "" Ionaer bei", oonaiclcnod. The


U.S. Department of Justice                                                                                   72
Office of the Inspector General
Evaluation and Inspections Division
  prooru of fonIullllia& • rcplK...,.,1 <be....,... lhII """lei ..ublilh I ~ JftlllllIO provido
                                                                                                   .... '
  O_pl ofEl'IC .... already - . ("itilled. DE..... ilI keep \fie OIG InfonneCl O( the: IHIIt'OmCOI or
  thooo: .....,.'" eiTono 10 update 1M: Cer.I«', tIwter....s p:vvide. mu~ fi-a.-nework Ilw
  furm.lliJJel eIdIl!IeIIIbef'. IOIei and rtlponsiloililies for ;!T'4'lerMltin8111d IJStIininj EPIC',
  pIC""," """ IIw pIOvideo I Pl"'UJ for moclv;ng ~ifT_.

  R""o mm~d.UOft 3. EPIC p r _, 1.~rt8Ud rtportll l " (d rl,RllIIrc
  Srtr;.reSylleo•• ~ .... . ~ Ibe EPI C Por ta' ODd Ir . dltlolll .... ~od •.
                                                                                 d." to th NaU"...
  DEI'. CUlCUr1 rri!h 1M: _eodot;"'. De!pilC: It", <I.,. ..ubI)' of having .. tingle ..,..ioNl
                                                                  ..mua.
  d· ........ 1kaI tOlllai .. 01 1."lilable ;of<:m!.Otion OII<onU'abmd         EPIC does not ....., tho:
  I<Ihorit11O di;uc rnmdaIory rqatm,; ~prdinllt.c: ocizJrre of dRaa. ourmICy, ,....,.... .... <>Ikt
  ~ inIo thc: Nllioral Seizure S)'SICm (NSS~ H"" ........ DEA _ ~rly ""Iuirccl
  fdnlliClll'* LO lI'O"idr ..... oa drua ocinrcs WIIicr "'" Fcdcnl DN. ldontifio;otion Number
  (FOIN) I'roIJ"III for.oov.thraDold Irizw'a. T1W _ KIDDIIli'lisbod by requiriT., an m IN
  ....,bcr on all faIcnI q.eizIR exbibiu • • ~\e fOr DEA', Iabomoria 10 """,ide
  ra' .......yo;.. SOniWiY. wbilo IlEA carmo1 ~r de or locaIaulhoririeo 10 "",¥ide
  ;~ OIl dnI&.mw.. (theoe ..,..,;.. rypiaIJy onaI)'U IXir II'n drill ",,"'biu). ore have
  proviIW incalli_ - " • B...a- Judlia-:e Systan, a-.tpa!iaIlnlOlmltioo. SY$km, .... Uni:
  ViaWiwion IDOla l>r '. ie ..... vtlhnanly comply. f>:pan6i", IIaiJ model 10 inc""" otbor
  typoo ofcontroband. i"d...rina - - " " _ <WTCft<)'. will require new 1TICICUni.... IIIao eilba
  ccmpeIor pnl>'ide ... flic .... ' irlMlli_ ..,. participolion. Sucilaulhorily for fedolnl I!lp<f1inl must
  be etubI,1hod at the 0qI1lfmerIl Levd lOr eadt of IX fcclml dtpInmenll invol~ed in lho oeizuo: or
  llDe ' )'pel of roDInband. Similarly, EPIC has no outhorily 10 .w>daIe Hi.,. inlM<ily Drug
  Tnffk:kil\i M. (HlOT A) wi< i>rtts ~ rcpon Dr ooordilllC IlzoolIIh EPIC _ IhallUthority rt:m
  ...,Ih ONOCP olnne. I["",,,,·cr. DEA belicveslhl, ONDCp·, bWgd ccniflCllion wthorities L">d \he
  ..,1 nukin"mcOli <01114 be ~If«tiv.ly """ 10 ,..ndlle redertll swe anollocal agency rq>OIti"l
  into ~c NSS iii EriC. WJik EriC doxt IlCr1l1a'·c Ik roqlililC I\I!l\Orily \D «Impel ~ning. EPIC
  Iw alrcody .. labli,h:<I and will «Inlina. 10 "'lJIait tJo.e "'·SS .. tho m)f[ compreh:ns.iv. database of
  ~""1",b;nd ... izut1!l O\IlTCIIIly IvliLobIe.


  Rt<o_-.dado. 4. T ~.Offkt . f,K ~~ty Allor • .,.~ . . ..1 work wltlo u. ONDer 10
        policy or C.kIIIKt tqll .... ~ HIDTAS III ["1* __ dlU! ..d ilfonutiol MllriI,;
  Hllblb~
  ,.-..,bl6a.lo tl tallls~ UIC .. ' kir IIIb for IrinIn n d d"l _          ..... 1 idar_.'''.

  ",.. ~ hal ...... responded 10 ..,.....~Iy by tile OffICe . f \be Deputy All1mCy
  '"""'.
  _ _ _. d _ $. Il PlC eo ....,." "",.to or ~ 1Mi ~ oil u _ ........... L ot.c..... '--I
      _~ .0 _10 ..... i I I f _ " " . Ioarinl lid .... fJI frlCI wn'~ aDd prod.clS.
  r.......

  DEA concun with Ihis~. EPIC alnldy 11M Icq sIanfdi .... poincs fJI COIIUCI.
  eIl.Ibijshed "";'.h nllnlftl)lItnarioul. reJional. wilille in:dl(go!« e~;~. the number o(
  ;III.lIi...,., ................ tho US. haoinc:reQed blli .......lyov... tho pd KveDI re- In
  particular, approximnely 72 DHS funded JIa:O.lcvd Inlelipnao Filii"" Ccntcn hlv .......
  nublillled lince Sqllcmbor I t. ZOOt. In 1lIOII illlWlCal. EPIC play",o rol. in lho eoIabHobm:nl of
  Ih..., inIC\lign<."""t(n      ond only becomct JWIR! oflhcir tIli"",","" " ben clemenlO witltin thcle



U.S. Department of Justice                                                                            73
Office of the Inspector General
Evaluation and Inspections Division
                                                                                                     '....
  cmtm CanllC! EPIC lOr inrOll1l&tion nlUpport. EPIC hJs bci\ll1 WOfting .... ith the OH5, OI'Jloc of
  Inlclliamu IIICI Analytil (t.lA). 10 INure It'IOR complete ooMectivity. AJ. relllll ohhe ~
  EPIC - I4A tllilrt, I single "RtqueII for [nfOflTlllion Collo:tion Sene" h.. boen oIdopIod 10
  drcctiYdy .....fer the respDftlibllityof the EPIC Collection IIId Requirements Unit to the OHS
  11(lme11lld lnfeUiaencc Suppon TCIIII (DIIS !lIST) which ill o;o-loo;aIed It EPIC. Thilaction ~
  directly ~ the EPIC CoIIeetioII ~ Unit with the 72 OHS manqed IIld tlllldct!
  Itll!~ Intelligence fUsion <:men.


  In an effott IOcrohantc infonnation WrinJ. EPIC will CONi ..... wmin& ..;.11 theeatab~shed poinll
  of tonlaet IIICI will leek to esublilh ""' poin.. of com.ct fOl'lllY ranaini", intellijmu ccntm.

  RK(lmmeldl,loa 6. EPI C luu~ monIMbi ,.. ,h'e ...lyllnl pndlfU based 01 tII,"'re
  dill tollKltd In the N.ti9nol Sel~Mre Sl"lem.

  DEA c:oncun with thilrccommmlluion, Sall,fyi ll, thil requirement r'Uluinol comrnilmenll'tora our
  Itderal plf\1lCII in popuLatill(l1ht: NSS lIICI.u.ffinlthe Re$ean:h and Anllysi. Section. !loweva',
  EPIC bu aIt9cIy eatlbliWd • PrtIIIic:tive and Tqetinj Unil dedicated 10 the _ I)'til of tile
  inltlliJcncc routinely lICquiml by EPIC vi, the NSS. Thill UIIil will be enS-Hell in idcI1tifyin. the
  poilll of enII'y of oon&rabaod inIo the U.S. II1II determining 1M IUIOI1I for failure 10 intenlid the
  drup or 0Iher ilIepi i_III tbc border. EPIC will o;anIinue ..., 0;011«"1 and analyze dl!l, bUI will
  rmin ill f.lClieal ~ and "",,vide    ....arm    thai _Ill lion! ~1111 inlcrdi<;lOn and in"C!lniplOrl. Ill.
  lII11cipllcd !hal odIer orpniZiliona wiU _die inl'onnalion eoll«1cd by EPIC 10 providcI tInIesic
  ~cl an.ol)$i5!ha1 infonnJ notional policy.

  K«(lmmtod.lloo 7. EPI C.uno the feulbWly l f .llIyU•• dick_tly KI •• ed ftllld.\e.1
  eloeumenu 10 ldulify Il'flIdl ll bot ...... 1'ftI •• eI pa1UtII.... r..... d. It. 1 ..... mul UM, lIei of
  proyldlnil ihe di ll 10 olber lOlclllatltt ¢fl ltrl ror Iklr . ....

  DE!. coneUr! with !hi. rccommCDdatien. The Frudulen! Document diacip~ne illtpOeiaJiud
  ..w)'lical p1QCC#. Durini llle December 2008. twe criticlllllal)'ltlutia:ncd to tM unil I'di"; m
  0Ihu key 1IIli! penonnel W"m! IT_pcd by 0115. h11I11ulr)' 2C()9,' compRt.elllive I "'nellt
  _ eondllClcd oftbc FlMICIulenc Document Unit and u • raul1 between l UM and (kIOtKr 2009,
  k'llior -JC!II1CM II EPIC ITIoeIllcod tho: liauduknt do<;umen1 initiatiye to the Ocncnl WItCh.
  Sinoe \lilt date, ptoIfftI hal COIIliDIIed. in III tffon to l'HSIablilb tho: progrwn and Improve EPIC'.
  ClIpabtlillOllO _!he inl'onnlllioa bel,t

  EPIC ~Iy dcvdopcd • ~Iily on till NSS 10 captw-e iIIformaIion obIained from Iei1:cd
  doc;umenll, ineludina fraudulent doewnenll. The protocol illO eleetmnie.tlly XIII tho: doclllnClllS
  and map tbe cIata elemcnlllO the Wopilte flCidI in lite NSS. Thill proj«1 iI on achcdule and once
  comp lClcd, uscn will be: able 10 ~ tho: Buli_lllldlipQ S)'$IC!In. tho: Gco-~ial
  lnfootlluion Sy.lem. and the UnJc ViIualiUlion 10011 on !he ESP to iclenti~ IfmIII and f1111em1 in
  the tile of OOtumenli ~Icd ofbeina: Craudulenl or fraudulmtly obIaincd.




U.S. Department of Justice                                                                             74
Office of the Inspector General
Evaluation and Inspections Division
   Michael D. c..lledge. Auimnt hupllClOf Gencrr.l                                                         ,,..,
   !Uton'mtldIUOI'. TH DEA IUUI t~e f~IIIblUly ofeahldlk Ihtu pl bmly II EP IC 10
   lulyu 11(llcll laformlno. 10 ldelUty IIlk" ,uad" nd p.nun l ln drMI lr. fTkklnl ICIMty
   II JUPpMt of l.tudklloaJ OpeI1lUOI •• Id IB'·Ullilllon

  DEI. cone"" .. i!h !his RIXlmmmdltioa.. EPiC .......... and concho;:lJ • pR>&r1m .... hich c:olkcq
  IElic:al inl'onnatiCIII on tbucti~itiel of dNt IrlIf'I"ockm MIl providn1lle iotformltJon 10 II ..
  enliloCGllml and iDimliction lIIGICieib immed:ialC lIC1icft.. Inrcllipnce ICqIIired by _              orlhil
  opcntion .. hiJIlIy paishobl.1IdicaI inlel~pnce. AI _II, ~ is CGI\II.Intly lllllyUId by trained
  DBA INC1Upnce Rnan:h Specialietl (IRS) for by Ktionabk information. Followina Ihis
  1I\IJ)'Iil. the intdlijaoce iI_ IiO tciecl U.s . ...... enfo!oMCliC I&CIICY pe'lOillltllO ra.:ilitak:
  intmliction 0.- OIlIer ."bCC..... iC .,tiooo. AIoaI)'Iis i, pcrfonncd 10 mhanoe inlapo'eWioa ohhe
  in{onnIIIion for t.:Iical application. bulllldilionll rnoun:es will be required to concIucIlraId
  l!II.l)'Iil. DE.!. hal pll100d I RqxIIU Om- .. EPIC 10 prr:parc summarin of Ihis information IncI
  develop In •• lligcnee InlOOnotion Rq'lOfU (11K ) that CUI 1It.-:r to prepor1Ilrmd 1I\IJ)'foit. SI_
  M&n:h 2()()9, onr 600 URI have bmt produced ba.ed on .be lICIicl l inteliiJftlC4lIfom the opcrIIioa.

  The Pl"C'([iclivc and T...,etm, Unil i, no ... III omcill"l.and·llQnc~ unit will1in.tIc ReK&n:h and
  Anll)'l;' Section and iI.lIlTed by _1)'111 fIom mu l.iple Iger.ciel. Thilllllit ... ill bct:ome!be tn.i.y
  that conductl trm;I and pIl.em lI\IJyail,

  Reo....e.dllkNI ,. E PI C tumi ••• t ..... pproac~n for IIUlkhll Glttktrprr bI(orllUlUOII maN
  ( .. rut lid IttftIlblt.

  DEA f')ftCUI'I willi lltil ~ M preWHaJy indk· ..... i. ia _ _11M dif'l"lCUlllO
  rapood 10 litis (tndlna due the lack of lpIICi6c: idmofiCllion of .. hklo ~ ... EPIC ......... ~ dele""i..ed
  the Iq>OI1 "to be 0lIl of dale.~ With thallimilllioft in mind. the followi", .apoo .. iI repelled:

  The EPIC Galri:<qlCI" Study .... 111 and bI inlCl'ldai U I tat6clllntellipncc publie.alion for     '*'   by line­
  officen \0 provide IilIIHUIllI1ll of tile crimiMl elemcnt& c:omromn, key portionI orthe bonScr
  ImUiIIliTlJ "ctwon:. While !be initill publication ..... iIlued in ZOO7, .... ilh • wbMquent exP'Qdod
  publication in 2008. updllea M~e been prepued u new information bec_ available. Durinl the:
  past two )",ilI'I. periodic publiclliOlU Ofl lpee;'", Gltekoo:per Corridon Mve bmt dirtributed. In
  oddition. key Law ",,1Ore_ment m&rI&jjtnlent penonnel Mv. been pr!.Il'idcd nunlmlUl merongo 011
  curreDI 0",*"'1'" Intfllilmef. Morenver. u illlflliBfDCe rcprdinll Gi.ekeoper ",bjecll il
  Ilc\·clopcd il II ill1JllNiaicly ondl'Olllinely Ihared bct .... mt EPIC lIIlalyatl antl \llc:lkal elemtnll.
  Ad<.Iitional dillllCminllion ofCUllen.   Gatclroo:per intellilltnCe hu btrn prO~ided vii RepoN Offtcm
  and lIR di....run.tion.

  EPIC till lind bI continlllDi to diuentinlle _Iy ckvcloped loIIcll~ .. bled 10 the: Gatdt<qlCl1
  _ receltly publiIhcId allUlty ~ 011 U.s. ~ *"1 dillriblWort netwom linked 10 the
  South"eII BonIa". The 010 Rn'icw Team recommCl'ldai lii0i ... of"Wiki~ IOftware _ _
  intttnd techno!o&Y 10 IUpport die conlC:ll"op<nneOlII production of updated Gatckeeper·rdMod
  reponiTlJ /\om I v";ety of utanal ond imcmaI EPIC ~ Thlo i, ... inlmsUlI& COIICCJI! and
  .. iU lit considered by EPIC III I ~ti.:r 1001 for the: production and dilllCmination ofGatd< ........
  informatiOn. The primary concern EPIC hal ... ill1 die propou.I II in volidalillj the _lIfEY o{the:
  informal Ion belllJl pll!lCn.td. Thi. rec:ommeoo.tion will be liken under consideration for pouible
  futu .. exparlIlon of ... ha. EPIC cwmuly colllidm Ilubatllltially elTeo:live diucminatioo pt"O«II.



U.S. Department of Justice                                                                                     75
Office of the Inspector General
Evaluation and Inspections Division
   Mithael 0 , Gulled.. Alli.lanl 1ru.pec1Or General


   Ilero.,_.dllio. 10, r.PI C del-'fIop pbiOl'.... u _ trla'&I' 111111 PfOIrlUnlud ollfrltloal
   tht ddiat ..,.levllt nd objK1ln JII.dll"lll, • .d I tt tM _tm HI enl..te prtcnlll
   ~Il'..,tlvtu..,


   DEA concurs wilh lIti. rcc:ommenr.t.im The EPIC SIItlep: P'-nand pafonnancemetricl bave
   been revised 10 ~n!et EPIC'. CUfl'tl'tt cortfilJUl'llion: however, .. EPIC it currenlly wtdf: ....",
   illddilional miMion nl o:JIi&IliuriooaJ chan.,., L/lI' EPIC StrIItiic I'bn will than&e and_1IICtricoI
   will be developtd .. _ _ y,

   R_ _ ldlllol II . EPIC develop. _hnbm " 1)'lleml ricllly colle<l fHdbKk 01 h'
   p..cIlCU • • d tt~ fro ...... f'S.

  DEA CODC:ul1 with!IW reoomrnmdaIiort bill klieva thIt!he lmIIIt'llftldltion would be tn(lI"e
  lCCunie if it rtId "EPIC aM 9jlljPB !!!!lfhaplRQI 10 ')'IIemalielily toIlect fecdbac:k ... "
  AltOOqIo EPIC"" repeI1fdIylOJiciICd ~ feedbao:k on the lCC_y. utit~y. -.I nocd lOr
  rtvilion of 1M Cmler', p....m.m ond teMces. EPIC willipin CUl:lUoe lilldilionlllvmlllel of
  IOlicitlllon of fHdback rcgardinl!he Cmtcr'1 df«livalClllO lhe bw enlOKement. To I a.uin
  Cllen~ we belien It.. t the IAcl of Cllllomer ffCldbld: rtllectllllisflCUon. We lite II]*iII note: of
  the oro',   11M of, III!VCY i!I$IJUmCi"\1 tha!lyatemaliully plhemI f<l:dblck lOIld detcnnined thII
  EPIC o;\IIIOmCn wen: very plu...1 .... ilh the quality, timelineu IOId Iii Ii.), oflhl inbmalion and
  ... io;ea pn:rridcd by EPIC, EPIC will coruider lIIinlll,imilar lW'VCY in OW"0ft01Oi1l8_11
  ort~ Centcr', dwim.. Othcr f__ of Cllltomer fecdbKk ..,Iici.ot''''''' we ~ considc:rinll incilldo:


          lteYiIion ofltle o:curx critique questionnairt pr(Ivkted 10 participants in EPIC', Stile and
          Loeal LiaiIon T.-mna
          Elit questioo.rWi"tIfar...,...
                                   I'ropanI,
                                          vilitinJ the Cenla.
          An 1lU1I1ll.-smertt q~ _ 10 ..1pmUcipatina EPIC apocy member
          lludqulll1m, NlIionIllOlld Stale itMelJipnce centen and inlCmpnce lWon Cenlm, and
          H1DTAI.

       Doounenlltion KuBin. DBA', dfortl to imp\cn>enl each orlho ~ noted in IhiI
   drift repon will to: rrm'ided to the 010 on I qLllt1criy ~il. until w;h lime tNt all OOI'ftO:tive
   acliOlll hln bmI mnpklcd, If )'011 hI~e any qUCItiQIII ~JIl1Iin. DEA " rapoose 10 lhe OIG',
   recommcndaI>ons ple_ ~. L/lI' Audil Uai$Oll Team at (2(1) ))7-8200,




U.S. Department of Justice                                                                               76
Office of the Inspector General
Evaluation and Inspections Division
    APPENDIX IX: OIG ANALYSIS OF THE DRUG ENFORCEMENT 

                 ADMINISTRATION RESPONSE 



       The Office of the Inspector General provided a draft of this report to
the Drug Enforcement Administration for its comment. The DEA’s
response is included in Appendix VIII to this report. The OIG’s analysis
of the DEA’s response and the actions necessary to close the
recommendations are discussed below.

Recommendation 1. EPIC expand its outreach and education
program to promote the use of its products and services, including
information about how to use the EPIC Portal.

       Status. Resolved – open.

      Summary of the DEA Response. The DEA concurred with the
OIG’s recommendation that it use its outreach and education program to
promote the use of its products and services, but stated that the
recommendation should be reworded to recognize EPIC’s current
marketing efforts. Specifically, the DEA stated that the OIG’s
recommendation should be reworded to state, “That EPIC expand its
outreach and education program . . . .”

      The DEA stated that EPIC has continuously marketed its products
and services, and that this resulted in a significant increase in the
number of EPIC’s approved users from about 19,000 to about 25,000
during the last year. The DEA commented that EPIC’s outreach efforts
had included hosting about 8,000 visitors at EPIC annually. The DEA
further stated that EPIC provided information about its products and
services during training events it conducted at locations throughout the
country to about 3,000 to 5,000 law enforcement officers each year. The
DEA specifically noted that the overall number of approved EPIC users is
an under-representation of the actual number of individuals from the law
enforcement community that are aware of and that use EPIC on a daily
basis. The DEA stated that one approved user might satisfy the
information requirements of an entire department, squad, or unit. The
DEA stated that EPIC is on track to process more than 100,000 queries
during fiscal year 2010.

     The DEA further stated that it will explore new opportunities to
expand the marketing of EPIC and will also develop a program to expand
customer usage of the EPIC Portal.



U.S. Department of Justice                                                77
Office of the Inspector General
Evaluation and Inspections Division
     OIG Analysis. The DEA’s planned actions to explore new marketing
opportunities and increase customer use of EPIC’s products and
services, including the Portal, are responsive to our recommendation.
Further, the OIG recognizes that these planned actions are an expansion
of EPIC’s outreach and training efforts, and we therefore amended the
recommendation from “implementing an outreach program” to
“expanding its outreach program.”

       While we amended the wording of our recommendation to
acknowledge that EPIC has conducted some outreach, we nevertheless
believe that EPIC’s outreach program needs significant improvement.
During our review, we found that EPIC staff had principally provided
information about EPIC’s products and services to law enforcement in
conjunction with interdiction training events it conducted each year.
Yet, these efforts were not based on a plan that encompassed a
comprehensive strategy targeting specific categories of actual or potential
users. The outreach that EPIC is providing through its interdiction
training targets only a relatively small population of state and local law
enforcement organizations that are likely to already have an association
with EPIC. The outreach EPIC conducts through interdiction training
also does not reach the majority of state and local law enforcement
organizations, many of which may be unaware of EPIC’s capabilities.

       While the DEA reported that EPIC had increased its number of
approved users by nearly one-third, from about 19,000 to 25,000, this
net increase in approved users still represents a very small segment of
the law enforcement community – less than 1 percent of federal, state,
and local law enforcement officers – that EPIC could potentially support,
either directly or indirectly.40 Similarly, we accept EPIC’s statement that
it hosts about 8,000 visitors each year and uses the opportunity of these
visits to possibly increase the visitors’ awareness of EPIC’s products and
services. However, describing products and services to a wide range of
visitors, many of whom are not potential users, does not substitute for a
targeted marketing effort to reach potential users not already aware of
EPIC and its services.

    The OIG agrees with the DEA’s comment that the number of
approved users is probably an under-representation of the actual

       40 During this review, EPIC provided the OIG with a list of the names of its

approved users that totaled 19,416 users as of July 2009. We did not verify the DEA’s
statement that, since then, the number of authorized users has increased by over
25 percent to 25,000 users (an increase of approximately 6,000 approved users).
Further, we did not examine the composition of the additional 6,000 to determine
whether they were federal, state, or local users.


U.S. Department of Justice                                                         78
Office of the Inspector General
Evaluation and Inspections Division
number of individuals from the law enforcement community that benefit
from EPIC. Yet, in light of the DEA’s example that one approved user
might satisfy the information requirements of an entire department,
squad, or unit, we believe EPIC could greatly expand its impact and its
efficiency by targeting individuals that can serve as points of contact in
their agencies for information requests to EPIC and for dissemination of
information and products from EPIC. A more targeted outreach and
education program designed to establish points of contacts with agencies
unaware of EPIC capabilities could also help EPIC better inform the
intelligence and law enforcement communities about EPIC’s capabilities.

      Please provide the OIG with a detailed description, timeline, and
intended audience of the actions planned to expand EPIC’s outreach and
education program to promote its products and services, including how
to use the Portal, by July 30, 2010.

Recommendation 2. EPIC update its Principals Accord or adopt a
comparable multi-agency framework that formalizes each member’s
roles and responsibilities for implementing and sustaining EPIC’s
programs and that provides a process for resolving differences that
may arise.

       Status. Resolved – open.

       Summary of the DEA Response. The DEA concurred with the
OIG’s recommendation and stated that EPIC had previously initiated the
process of formulating a document to replace its 1999 Principals Accord.
The DEA noted that there had been a rapid expansion of intelligence
centers nationwide since September 11, 2001, and that EPIC could not
update the Accord until it had resolved overlapping missions and
functions of other intelligence centers established in the El Paso area.
According to the DEA, the capabilities of these other centers have been or
will be incorporated into EPIC.

       The DEA stated that the updated Accord will establish a steering
group to oversee EPIC and will provide a multi-agency framework that
formalizes each member’s roles and responsibilities for implementing and
sustaining EPIC’s programs and that provides a process for resolving
differences.

      OIG Analysis. The actions planned by the DEA are responsive to
the OIG’s recommendation. Please provide the final version of the
replacement document, or the status of planned actions, by July 30,
2010.


U.S. Department of Justice                                             79
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 3. EPIC promote more complete reporting of drug
seizure data to the National Seizure System through the EPIC Portal
and traditional methods.

       Status. Resolved – open.

      Summary of the DEA Response. The DEA concurred with the
OIG’s recommendation. The DEA stated that EPIC does not have the
authority to direct mandatory reporting of seizures of drugs and other
contraband, but it will continue to manage the National Seizure System
as the most comprehensive database of contraband seizures currently
available. The DEA stated that it has successfully required federal
agencies to provide data under the Federal Drug Identification Number
Program on seizures above specified threshold amounts. The DEA stated
that while it cannot compel state or local authorities to provide
information on drug seizures, EPIC has provided incentives for reporting
in the form of additional analytical tools available to agencies that
voluntarily comply. The DEA stated that additional requirements for
reporting seizures into the National Seizure System would have to be
established at the federal Department level or by the Office of National
Drug Control Policy through its budget certification authority. The DEA
stated that it believes that the ONDCP’s budget certification and the
grant-making process could be used effectively to mandate federal, state,
and local agency reporting to the National Seizure System at EPIC.

       OIG Analysis. The DEA’s planned actions to expand the
availability of analytical tools as incentives to promote voluntary
reporting into the National Seizure System and to work with the ONDCP
on budget and grant issues are responsive to the recommendation.
Please provide the OIG with a description of how EPIC proposes to
further develop and make available analytical tools and the timeline for
implementation. Also, provide the DEA’s plan for engaging the ONDCP to
promote increased reporting into the National Seizure System by federal,
state, and local agencies. Also, please identify how EPIC will monitor
and measure progress in improving the completeness of federal, state,
and local agency reporting into the National Seizure System. Please
provide the requested information, or the status of planned actions, by
July 30, 2010.




U.S. Department of Justice                                            80
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 5. EPIC establish points of contact at all national,
regional, state, and local fusion centers to enhance information
sharing and use of EPIC’s services and products.

       Status. Resolved – open.

       Summary of the DEA Response. The DEA concurred with the
OIG’s recommendation and stated that EPIC had already established
longstanding points of contact with numerous national, regional, and
state intelligence centers. The DEA stated that the number of state and
local intelligence centers across the United States had increased in
recent years, that EPIC exercised no role in the establishment of these
centers, and that EPIC only became aware of the existence of some of
these centers when they contacted EPIC for support. According to the
DEA, EPIC recently took action to directly connect EPIC with the 72 state
intelligence fusion centers managed and funded by the Department of
Homeland Security. EPIC has now assigned responsibility for managing
requests for information from these centers to a DHS unit at EPIC, the
Homeland Intelligence Support Team, which has a direct automated
connection to the DHS-funded centers. The DEA also stated that it will
seek to establish points of contact for any centers where it lacks them.

       OIG Analysis. The DEA’s planned action to seek points of contact
for centers where it lacks them is responsive to our recommendation.
However, as the DEA noted, the number of intelligence centers has
increased significantly over the past several years and is likely to
continue to increase. Please provide documentation of EPIC’s efforts to
identify the universe of centers and a point of contact in each center and
of how EPIC will update its information on centers and points of contact.
Also, please describe how the DHS unit at EPIC is ensuring that EPIC is
connected to the DHS-funded centers. Please provide the requested
information, or the status of planned actions, by July 30, 2010.

Recommendation 6. EPIC issue more substantive analytical
products based on the seizure data collected in the National Seizure
System.

       Status. Resolved – open.

      Summary of the DEA Response. The DEA concurred with the
recommendation and stated that it established a Predictive Analysis and
Targeting Unit dedicated to the analysis of the intelligence EPIC routinely
acquires via the National Seizure System. This unit will identify points of
entry of contraband into the United States and determine the reasons
interdictions fail at the border.

U.S. Department of Justice                                              81
Office of the Inspector General
Evaluation and Inspections Division
      OIG Analysis. The actions described by the DEA are responsive to
the OIG’s recommendation. Please provide the OIG with examples of the
analytic products created by the Predictive Analysis and Targeting Unit
and a description of how and to whom EPIC will disseminate these
products. Please provide the information, or the status of planned
actions, by July 30, 2010.

Recommendation 7. EPIC assess the feasibility of analyzing
digitally scanned fraudulent documents to identify trends in both
sources and patterns of fraudulent document use, and of providing
the data to other intelligence centers for their use.

       Status. Unresolved – open.

       Summary of the DEA Response. The DEA concurred with the
OIG’s recommendation and stated that EPIC recently developed a
capability within the National Seizure System to capture information
obtained from seized documents, including fraudulent documents. Once
this capability is implemented, EPIC will scan and map the data
elements in seized documents into the National Seizure System so that
users will have access to these data. The DEA stated that this will allow
users to identify trends and patterns in the use of documents suspected
of being fraudulent or fraudulently obtained.

       OIG Analysis. The actions planned by the DEA to map fraudulent
document data to a database were described to the OIG during this
review (see pages 36–37 of this report). While these actions will enhance
users’ access to the information contained in seized documents, the DEA
response did not address the OIG’s recommendation that the DEA assess
the feasibility of EPIC conducting its own analyses to identify trends and
patterns in the use of seized fraudulent documents. Also, the DEA did
not address its assessment of the feasibility of providing the data to other
intelligence centers for their use. Please provide the OIG with the
assessments of the feasibility of EPIC analyzing digitally scanned
fraudulent documents and of providing the data to other intelligence
centers. Please provide the information, or the status of planned actions,
by July 30, 2010.




U.S. Department of Justice                                               82
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 8. The DEA assess the feasibility of enhancing the
capability at EPIC to analyze tactical information to identify links,
trends, and patterns in drug trafficking activity in support of
interdiction operations and investigations.

       Status. Resolved – open.

      Summary of the DEA Response. The DEA concurred with the
recommendation and stated that EPIC’s Predictive Analysis and
Targeting Unit will become the entity that conducts trend and pattern
analysis on the data EPIC collects to provide information on the activities
of drug traffickers to law enforcement and interdiction agencies for
immediate action.

      OIG Analysis. The DEA’s planned actions are responsive to our
recommendation. Please provide documentation (such as an internal
EPIC directive or a DEA or EPIC teletype or standard operating
procedure) that demonstrates that this new responsibility has been
assigned to the Predictive Analysis and Targeting Unit, and provide
examples of analytical products identifying trends and patterns, or the
status of planned actions, by July 30, 2010.

Recommendation 9. EPIC examine new approaches for making
Gatekeeper information more current and accessible.

       Status. Resolved – open.

       Summary of the DEA Response. The DEA concurred with the
OIG’s recommendation but commented that it could better respond if it
knew the identification of users who believed the Gatekeeper report “to
be out of date.” The DEA emphasized that the EPIC Gatekeeper report
“was and is a tactical intelligence publication for use by line officers to
provide an assessment of the criminal elements controlling key portions
of the border smuggling network.” According to the DEA, the Gatekeeper
report was initially published in 2007 and was expanded as a publication
in 2008, and that updates and publications addressing specific
Gatekeeper Corridors have been periodically published since. In
addition, Gatekeeper intelligence is briefed often and shared immediately
and routinely between EPIC analysts and tactical elements. The DEA
commented that EPIC considers its internal process for disseminating
Gatekeeper information to be timely and effective.

      The DEA stated that it would consider the OIG’s suggestion to
explore the use of “wiki” software as a mechanism to maintain
Gatekeeper information. The DEA stated that this recommendation

U.S. Department of Justice                                                83
Office of the Inspector General
Evaluation and Inspections Division
would be taken under consideration for possible future expansion of
what EPIC considers to be a substantially effective dissemination
process. Further, the DEA noted that its primary concern in using
technology such as a “wiki” would be validating the accuracy of the
information presented.

       OIG Analysis. The DEA’s planned action to consider the use of
“wiki” software is generally responsive to our recommendation. Our
conclusion that EPIC’s Gatekeeper report could be more current and
accessible is based on interviews with agents and analysts in the
Southwest border area and at EPIC as well as on our survey results.
During these interviews, agents and analysts generally commented that
the Gatekeeper report was a good product, though some stated that its
usefulness was often limited because it was not current. Several
interviewees stated that the Gatekeeper report was useful to them
primarily as a historical reference. This is not consistent with the DEA’s
intent that the Gatekeeper report be a “tactical intelligence publication
for line officers.” Also, our survey results indicate that the Gatekeeper
report is not widely accessed or used by line officers, as the majority of
respondents, many of whom had the capability to access the Gatekeeper
report, nonetheless did not use or know of the Gatekeeper report.

       Further, we noted that EPIC has increasingly used the
dissemination of tactical reports to provide updates of Gatekeeper-type
information, but that these tactical reports do not appear to be
integrated into the Gatekeeper report in a way that would provide line
officers a comprehensive view of the Gatekeeper Corridors. While the use
of “wiki” software would present EPIC with challenges to ensuring the
validity of data, we found during our review that the intelligence
community is already using “wiki” software in its “Intellipedia,”
suggesting that these issues are not insurmountable. Our
recommendation that EPIC examine new approaches for making
Gatekeeper information more current and accessible is intended to
benefit Gatekeeper’s customer base – line officers and their organizations
needing timely access to this type of information.

       Please provide the OIG with the planned assessment of using
“wiki” software or other approaches to make Gatekeeper information
more current and accessible, or the status of planned actions, by
July 30, 2010.




U.S. Department of Justice                                              84
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 10. EPIC develop performance metrics for all of
its programs and operations that define relevant and objective
standards, and use the metrics to evaluate program effectiveness.

       Status. Resolved – open.

      Summary of the DEA Response. The DEA concurred with the
recommendation and stated that EPIC’s Strategic Plan performance
metrics have been revised to reflect EPIC’s current configuration. In
addition, because EPIC continues to undergo additional mission and
organizational changes, the DEA stated that EPIC’s Strategic Plan will
continue to change and new metrics will be developed as necessary.

      OIG Analysis. The actions taken and planned by the DEA are
responsive to the recommendation. Please provide the OIG with the
revised metrics from EPIC’s Strategic Plan and the data that EPIC will
use to measure whether it met its goals. Please provide the information,
or the status of planned actions, by July 30, 2010.

Recommendation 11. EPIC expand its existing mechanisms to
systematically collect feedback on its products and services from
users.

       Status. Resolved – open.

      Summary of the DEA Response. The DEA concurred with the
OIG’s recommendation to systematically collect feedback from users and
stated that it believed the recommendation should be revised to recognize
EPIC’s existing mechanisms for collecting feedback. However, the DEA
stated that the OIG’s recommendation should be reworded to read that
“EPIC expand existing mechanisms to systematically collect
feedback . . . .”

       The DEA stated that EPIC had repeatedly solicited customer
feedback on the accuracy, utility, and the need for revision of its
products and services, and that EPIC would examine additional avenues
for soliciting feedback regarding its effectiveness to law enforcement. The
DEA stated that the lack of customer feedback to EPIC reflects a general
level of satisfaction. The DEA stated that EPIC would consider:
(1) future use of a survey similar to the one the OIG used in this review
to assess user opinions about the utility of EPIC’s products and services,
(2) revising the course critique questionnaire provided to participants in
EPIC’s State and Local Liaison Training Program, (3) using exit
questionnaires for groups visiting EPIC, and (4) administering an annual
assessment questionnaire to all participating EPIC agency members at

U.S. Department of Justice                                               85
Office of the Inspector General
Evaluation and Inspections Division
headquarters, at national and state intelligence centers and intelligence
fusion centers, and at High Intensity Drug Trafficking Area (HIDTA)
intelligence support centers.

       OIG Analysis. Although the DEA did not identify specific
mechanisms that EPIC currently employs to systematically collect user
feedback, the DEA did identify additional forms of customer feedback
solicitations that EPIC would consider implementing. The additional
mechanisms are responsive to our recommendation. The OIG also
recognizes EPIC’s planned actions to expand its collection of user
feedback and has amended the recommendation from “implement
mechanisms” to “expand existing mechanisms.”

      In particular, the OIG views EPIC’s use of an annual assessment
questionnaire to be completed by all participating EPIC agency members
at headquarters, national and state intelligence centers and intelligence
fusion centers, and HIDTAs to be a useful assessment mechanism.
Please provide a description of the current methods and the new
methods selected for systematically collecting user feedback on EPIC’s
products and services, EPIC’s plan for collecting and analyzing the
information, and examples of the completed analyses. Please provide the
requested information, or the status of planned actions, by July 30,
2010.




U.S. Department of Justice                                              86
Office of the Inspector General
Evaluation and Inspections Division
